<html>
<title> - H.R. 4030, CONGRESSIONAL MEDAL FOR OUTSTANDING CONTRIBUTIONS IN MATH AND SCIENCE EDUCATION ACT OF 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                   H.R. 4030, CONGRESSIONAL MEDAL FOR
                   OUTSTANDING CONTRIBUTIONS IN MATH
                   AND SCIENCE EDUCATION ACT OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 30, 2004

                               __________

                           Serial No. 108-52

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                    U.S. GOVERNMENT PRINTING OFFICE
92-756                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
PHIL GINGREY, Georgia                SHEILA JACKSON LEE, Texas
RANDY NEUGEBAUER, Texas              VACANCY
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                 DAN BYERS Subcommittee Staff Director
            JIM WILSON Democratic Professional Staff Member
       DAVID FINGER Professional Staff Member/Chairman's Designee
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                      JAMES HAGUE Staff Assistant


                            C O N T E N T S

                             March 30, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Subcommittee on Research, Committee on Science, U.S. 
  House of Representatives.......................................     9

Prepared Statement by Representative Michael Honda, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    10

                               Witnesses:

Ms. Antoinette M. Bailey, Vice President, Community and Education 
  Relations, Boeing Company
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    30
    Financial Disclosure.........................................    31

Mr. Jay T. Engeln, Resident Practitioner for Business-School 
  Partnerships, National Association of Secondary School 
  Principals
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    49
    Financial Disclosure.........................................    50

Mr. Torrence H. Robinson, Director, Federal Affairs, Texas 
  Instruments
    Oral Statement...............................................    51
    Written Statement............................................    52
    Biography....................................................    56
    Financial Disclosure.........................................    57

Dr. Judith A. Ramaley, Assistant Director, Education and Human 
  Resources Directorate, National Science Foundation
    Oral Statement...............................................    58
    Written Statement............................................    59
    Biography....................................................    62

Mr. Gus A. Krudwig, Co-founder, The Glou Factory
    Oral Statement...............................................    63
    Written Statement............................................    64
    Biography....................................................    91
    Financial Disclosure.........................................    92

Discussion.......................................................    93

             Appendix 1: Answers to Post-Hearing Questions

Ms. Antoinette M. Bailey, Vice President, Community and Education 
  Relations, Boeing Company......................................   106

Mr. Jay T. Engeln, Resident Practitioner for Business-School 
  Partnerships, National Association of Secondary School 
  Principals.....................................................   107

Mr. Torrence H. Robinson, Director, Federal Affairs, Texas 
  Instruments....................................................   108

Dr. Judith A. Ramaley, Assistant Director, Education and Human 
  Resources Directorate, National Science Foundation.............   110

Mr. Gus A. Krudwig, Co-founder, The Glou Factory.................   111

             Appendix 2: Additional Material for the Record

H.R. 4030, Congressional Medal for Outstanding Contributions in 
  Math and Science Education Act of 2004.........................   114

 
 H.R. 4030, CONGRESSIONAL MEDAL FOR OUTSTANDING CONTRIBUTIONS IN MATH 
                   AND SCIENCE EDUCATION ACT OF 2004

                              ----------                              


                        TUESDAY, MARCH 30, 2004

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to other business, at 10:20 
a.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Nick Smith [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   H.R. 4030, Congressional Medal for

                   Outstanding Contributions in Math

                   and Science Education Act of 2004

                        tuesday, march 30, 2004
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, March 30, 2004, the Research Subcommittee of the 
Committee on Science of the House of Representatives will hold a 
hearing to examine the benefits of business involvement in math and 
science education and to consider H.R. 4030, legislation to establish 
the ``Congressional Medal for Outstanding Contributions in Math and 
Science Education'' program. The legislation seeks to recognize private 
entities for their outstanding contributions to K-12 science, 
technology, engineering and mathematics education.

2. Witnesses

Dr. Judith Ramaley is the Assistant Director of the Education and Human 
Resources Directorate at the National Science Foundation (NSF). Prior 
to joining NSF in 2001, Dr. Ramaley was President of the University of 
Vermont, and, before that, Portland State University. At both 
universities, she held a full professorship in biology.

Mr. Jay Engeln is the Resident Practitioner for Business-School 
Partnerships at the National Association of Secondary School 
Principals. Mr. Engeln has nearly thirty years of experience in public 
education in various positions at Colorado high schools, including as 
principal of William J. Palmer High School in Colorado Springs, where 
he initiated partnerships with more than 100 businesses. Mr. Engeln 
also was a finalist for Colorado Teacher of the Year and a recipient of 
the prestigious Kappa Delta Pi Award for outstanding contributions to 
education programs.

Mr. Torrence Robinson is the Director of Public Affairs for Texas 
Instruments, where he is responsible for developing and implementing 
education initiatives. In addition to his responsibilities at Texas 
Instruments, Mr. Robinson serves as Chair of the Texas Technology 
Workforce Development Program Advisory Committee, a committee of the 
Texas Higher Education Coordinating Board, and is a member of the 
Greater Dallas Chamber's Education Taskforce

Ms. Antoinette Bailey is the Vice President of Community and Education 
Relations at Boeing Company, where she is responsible for corporate 
charitable contributions, employee contributions, volunteerism, and 
external education funding and initiatives. Prior to the merger of 
Boeing and McDonnell Douglas, Ms. Bailey served as Vice President of 
Community Relations of McDonnell Douglas and President of the McDonnell 
Douglas Foundation.

Mr. Gus Krudwig is the co-founder of the Glou Factory in Jackson, 
Michigan. Established in 2000, the Glou Factory supports after-school, 
weekend, and summer enrichment programs for students in areas ranging 
from computer technology to woodworking.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet>  What is the Administration's position on H.R. 4030, 
        the Congressional Medal for Outstanding Contributions in Math 
        and Science Education Act of 2004?

        <bullet>  Why should businesses get involved in education? And 
        what role can they play in ensuring that all students receive a 
        high quality, world-class education?

        <bullet>  What are the results and benefits of business 
        involvement in math and science education for the employer and 
        its employees, the school, teachers and their students, and the 
        community as a whole?

        <bullet>  What are the hallmarks of a successful partnership 
        between schools and businesses? How is that success measured? 
        And how are those successes shared with other schools and 
        businesses?

4. H.R. 4030, the Congressional Medal for Outstanding Contributions in 
                    Math and Science Education Act of 2004

    Congress, school administrators and teachers have grown to embrace 
private sector involvement in education, especially as it relates to 
math and science achievement. For that reason, there have been a number 
of initiatives at NSF to encourage private sector involvement in 
education. For instance, until recently, 15 percent (approximately $35 
million) of H-1B user fees were used to support K-12 activities 
involving private-public partnerships in education, including materials 
development, student externships, and math and science teacher 
professional development. In addition, the Math and Science 
Partnerships Program created by the National Science Foundation 
Authorization Act of 2002 (P.L. 107-296) sought to require at least 
half of all partnerships funded under the program to involve 
businesses.
    On March 25, 2004, Representative Nick Smith introduced H.R. 4030, 
the Congressional Medal for Outstanding Contributions in Math and 
Science Education. The legislation seeks to recognize the outstanding 
contributions of private sector entities in improving math and science 
achievement by establishing an award program at the National Science 
Foundation.

5. Background

    According to a 2000 study by the National Association of Partners 
in Education, Inc., the number and scope of school-business 
partnerships has increased significantly in the past 12 years. Today, 
nearly 70 percent of all school districts now engage in some form of 
business partnership--an increase of 35 percent science 1990--with 
businesses contributing an estimated $2.4 billion and 109 million 
volunteer hours.
Student Achievement
    The 2000 National Assessment of Educational Progress (NAEP) showed 
that large numbers of U.S. students demonstrate a mastery of only 
rudimentary mathematics. For example, 31 percent of 4th graders, 34 
percent of 8th graders and 35 percent of 12th graders scored below 
``basic,'' meaning that the student failed to demonstrate even partial 
mastery of the knowledge and skills that are fundamental for proficient 
work at each grade level. Worse, the achievement gap in NAEP math 
scores between white and minority students has remained relatively 
unchanged since 1990, with 68 percent of African-American 8th graders 
scoring below the basic level, compared to 23 percent of white 
students.
    On international assessments, U.S. performance relative to other 
nations actually declines with increased schooling. According to the 
most recent (1999) Third International Mathematics and Science Study 
(TIMSS), an assessment that evaluates the math and science performance 
of 4th, 8th and 12th grade students from 42 different countries, most 
U.S. children score above average in elementary school, but those in 
12th grade--including our most advanced students--rank among the lowest 
of all participating countries, outperformed by nearly every 
industrialized nation and ahead of only Cyprus and South Africa.
    Although many parents and students believe that a high school 
diploma provides adequate preparation for higher education and the 
world of work, recent surveys found that most college students must 
take at least one remedial English or math class before beginning 
standard coursework. And many employers rated the skills of high school 
graduates in grammar, spelling writing and basic math as only ``fair'' 
or ``poor.'' Combined with the flat or declining enrollments of U.S. 
students in science and engineering majors, many are concerned that too 
many of our students enter the workforce with a low level of skills, 
making them most vulnerable to fluctuations in our knowledge-based 
economy and putting U.S. companies at a competitive disadvantage.
Workforce Projections
    In February 2004, the Bureau of Labor Statistics (BLS) projected 
that by 2012, the number of professional and high-skilled jobs will 
constitute 62 percent of all jobs. This is not surprising, as nine of 
the 10 fastest growing occupations are in the health and information 
technology industries.
    Moreover, individuals, companies, and society in general benefit 
when all students achieve challenging math and science standards. For 
example:

        <bullet>  One study at the University of Pennsylvania showed 
        that a 10 percent (or about one year) increase in the education 
        level of a company's workforce increased productivity by 8.6 
        percent, while a comparable increase in capital equipment 
        increased productivity by 3.4 percent. For non-manufacturing 
        companies, the result was even higher--11 percent.

        <bullet>  A new study reports that math and science proficiency 
        boosts earning power by a remarkable margin. BLS figures show 
        that, on average, 28-year-old workers who tested in the top 
        quartile of math skills on the National Assessment of 
        Educational Progress earn 37 percent more than those in lower 
        quartiles. A comparable advantage goes to those who test well 
        in science.

    In addition, one assessment of skills found that among the new 
basics for entry level workers at Intel are one year each of chemistry, 
physics, and electronics, plus a firm grasp of basic science. An entry-
level automobile worker, according to an industry-wide standard, needs 
to be able to apply formulas from physics to properly wire the 
electrical circuits of a car. And janitors at a hospital often have to 
understand bio-hazardous materials waste management. Yet, as noted by a 
1998 report authored by Representative Vernon Ehlers entitled, 
Unlocking Our Future, ``There appears to be a serious incongruity 
between the perceived utility of a degree in science and engineering by 
potential students in the U.S. and the present and future need for 
those with training in our society.''
Business Involvement in Education
    Many businesses first decide to get involved in education primarily 
for philanthropic reasons, but they soon recognize a variety of 
distinct benefits from a meaningful relationship with a school or 
district. Although many businesses continue to fund programs and donate 
equipment, many more are becoming to get involved in activities ranging 
from tutoring and employee involvement programs to reform activities at 
the national, state and local level.
    These relationships can boost student test scores, contribute to 
overall student achievement and enhance the student experience. For 
businesses, there are many different strategies they can employ. Some 
communicate workplace academic skill requirements to schools, parents 
and students through guest lectures, involvement on the school board or 
mentoring and tutoring programs for students. Others create 
opportunities to expose students to the world of work through 
internship or job shadowing programs. And still others encourage their 
employees, especially those who are parents, to increase their 
involvement with local schools by providing release time to allow them 
to volunteer or to attend parent-teacher conferences.
    From a human capital perspective, these relationships between a 
corporation and a school can boost employee morale, earning the 
employer and its employees recognition as a ``good neighbor.'' In turn, 
this can improve overall employee satisfaction and proving employee 
satisfaction and productivity.
    From a financial and community perspective, these relationships can 
provide a revenue stream to schools while also building customer 
loyalty for the business. In addition, school improvement can 
contribute to the economic health of the community. And the quality of 
a local school is, according to Money magazine, one of the most 
important criteria considered by potential employees when considering 
whether to accept a job offer in a new city.

APPENDIX

 Section-by-Section Analysis of H.R. 4030, the Congressional Medal for 
  Outstanding Contributions in Math and Science Education Act of 2004

Sec. 1. Short Title.

    ``Congressional Medal for Outstanding Contributions in Math and 
Science Education Act of 2004.''

Sec. 2. Definitions.

    Defines terms used in the text.

Sec. 3. Establishment of Program.

    Requires the Director to establish a Congressional Medal for 
Outstanding Contributions in Math and Science Education program, which 
shall be designed to:

        (1)  recognize private entities for outstanding efforts 
        supporting elementary and secondary schools in improving 
        student achievement in science, technology, engineering, and 
        mathematics;

        (2)  encourage private entities to support elementary and 
        secondary schools to improve and underscore the importance of 
        science, technology, engineering, and mathematics education; 
        and

        (3)  distribute information about the gold medal recipients 
        available to schools, institutions of higher education, 
        educators, parents, administrators, policy-makers, researchers, 
        public and private entities, and the general public.

Sec. 4. Medals.

(a)  Requires, within two years of enactment, the Director to annually 
name finalists according to the following criteria:

        (1)  not more than 20 private entities with more than 500 
        employees; and

        (2)  not more than 20 private entities with 500 or fewer 
        employees.

    Specifies that each finalist shall receive a citation describing 
the basis for the entity achieving status as a finalist.

(b)  Requires, within two years of enactment, the Director to annually 
award medals to employers who are among the finalists in (a) according 
to the following criteria

        (1)  not more than five private entities with more than 500 
        employees; and

        (2)  not more than five private entities with 500 or fewer 
        employees.

(c)  Distribution of Information.

        (1)  Requires the Director to distribute information about the 
        Congressional Medal recipients to schools, institutions of 
        higher education, educators, parents, administrators, policy-
        makers, researchers, public and private entities, and the 
        general public.

        (2)  Allows any entity that is a finalist or receives a medal 
        to use such information for advertising or other publicity 
        purposes.

Sec. 5. Eligibility.

    Makes any private entity that has, either alone or in partnership 
with for-profit and/or non-profit entities, assisted students, 
teachers, administrators, or other support staff in improving student 
achievement in science, technology, engineering, and mathematics in a 
school or community eligible to receive a medal. Requires the entity to 
be involved in a sustained manner for at least two years with at least 
one elementary or secondary school.

Sec. 6. Application.

    Requires the Director to establish a system for accepting 
applications from entities seeking to be considered for the medal. 
Requires applications to include at least two letters of support, which 
may come from teachers, support staff, administrators, professional or 
business organizations, local, county, or State Departments of 
Education, and any other categories of persons or organizations as 
designated by the Director.

Sec. 7. Selection.

    Requires the Director to give priority consideration to evidence of 
improved student achievement in selecting entities to receive medals. 
Requires the Director to consider, in addition to any other criteria 
the Director may establish:

        (1)  Evidence of innovative approaches to increase interest by 
        students in science, technology, engineering, and mathematics 
        such as an increase in the number of students enrolled in 
        advanced courses related to such fields;

        (2)  Evidence of employee interaction with students or teachers 
        to support and improve mathematics and science learning;

        (3)  Evidence of success in positively influencing student 
        attitudes and promoting education and career opportunities in 
        science, technology, engineering, and mathematics;

        (4)  Evidence of successful outreach to students, parents, and 
        the community regarding the importance of mathematics and 
        science education to the Nation's prosperity, job creation, and 
        standard of living, as well as future earning potential for the 
        individual; and

        (5)  Evidence of a strong and sustained commitment to the 
        students and schools.

Sec. 8. Authorization of Appropriations.

    For each of fiscal years 2005 through 2007, authorizes such sums as 
are necessary for carrying out this act, to be derived from amounts 
authorized by the National Science Foundation Authorization Act of 
2002.
    Chairman Smith. We will now proceed with the witnesses on 
the bill.
    Last year, during the consideration of legislation to 
authorize the Math and Science Partnership program, I asked our 
witnesses to consider how we encourage better math and science 
performance in our students from kindergarten through the 12th 
grade. Some of the--I said, to the extent that learning 
throughout your life, and especially in math and science and 
engineering, is maybe more the lighting of a fire than it is 
filling a container with knowledge, when is the fire, if you 
will, started or lit with these young students? Some suggested 
maybe it was when they were four years old, before they came to 
school. Some suggested maybe it was in kindergarten or the 
third grade. Some said even if that fire is lit and the 
excitement is there, the flame can go out if you don't have the 
kind of qualified, good teachers in later years from seventh 
grade through high school.
    It seems to me that we need to do a better job of 
encouraging and training students in science and math so that 
they, and the United States, can be successful in the highly 
competitive job market that is emerging. And the way to 
maintain and increase our standard of living is through 
innovation, technological advancement, and I add to that, hard 
work.
    I just returned from China last month, and where I think we 
average maybe six hours and 52 minutes a day workday, they are 
averaging 10 hours and 35 minutes in their workday. We sat down 
with the Chinese that are now pushing science and math 
education like they have seen accomplished in countries like 
India and Pakistan, where it becomes a priority, almost for 
every student. And as we have seen with the results from the 
recent Third International Math and Science Study, as well as 
evidence that we have seen in our schools, it demonstrates in 
stark terms the need to improve math and science achievement 
for all students.
    And while the U.S. students are nearly first in the world 
in science and above the international average in mathematics 
in grade four, this predominance is short-lived. In fact, the 
longer U.S. students are in school, the further they fall 
behind. By 12th grade, U.S. students rank among the lowest of 
all participating countries, only ahead of countries like 
Cypress and South Africa.
    In response to this data, President Bush proposed the Math 
and Science Partnership program as part of his comprehensive 
education reform initiative. This program was created to 
support partnerships between colleges and universities and 
elementary and secondary schools, but it also sought to 
challenge long held practice and support innovative projects in 
math and science.
    However, universities and colleges aren't the only 
organizations that partner with schools to improve K through 12 
math and science education, as our witnesses today will comment 
on. And in those communities where business and industry have 
been more aggressive in supporting their schools and helping 
with math and science education to stimulate the sparking of 
the fire and to make sure that that flame continues, there is 
significant difference with those students and the achievement 
of those students.
    As I mentioned before the markup, H.R. 4030 creates a 
Congressional Medal for private entities for outstanding 
contributions to math and science education at the K through 12 
schools. In addition to recognizing these efforts, the 
legislation requires the National Science Foundation to make 
information about award winners publicly available so that 
examples of techniques and strategies can be used around the 
country.
    [The prepared statement of Chairman Smith follows:]

               Prepared Statement of Chairman Nick Smith

    I'd like to welcome all of you here today for this Research 
Subcommittee hearing on H.R. 4030, the Congressional Medal for 
Outstanding Contributions in Math and Science Education Act of 2004, 
which Ranking Member Johnson and I introduced last week.
    Last year, during the consideration of legislation to authorize the 
Math and Science Partnership Program, I asked our witnesses to consider 
the following question: if education is more the lighting of a fire 
than filling a container with facts, when is that fire lit for math and 
science and how do we keep it kindled?
    They all had different answers. Some said third grade. Others said 
kindergarten. Yet they all agreed that our greatest failure--and our 
greatest challenge--was that too many children failed to experience the 
spark at all. As a result, too few received the math and science 
education they deserved.
    We need to do a better job of encouraging and training students in 
science and math so that they and the United States can be successful 
in the highly competitive job market that is emerging. The way to 
maintain and increase our standard of living is through innovation, 
technological advancement and hard work. Unfortunately, our schools 
aren't producing enough young people with the math and science skills 
necessary to meet demand.
    Results from the most recent Third International Math and Science 
Study (TIMSS)--as well as evidence all around us--demonstrate in stark 
terms the need to improve math and science achievement for all 
students. While U.S. students are nearly first in the world in science 
and above the international average in mathematics in grade four, this 
predominance is short-lived. In fact, the longer U.S. students are in 
school, the farther they fall. By l2th grade, U.S. students rank among 
the lowest of all participating countries and ahead of only Cyprus and 
South Africa.
    In response to this data, President Bush proposed the Math and 
Science Partnership Program as part of his comprehensive education 
reform initiative. This program was created to support partnerships 
between colleges and universities and elementary and secondary schools 
but it also sought to challenge long held practices and to support 
innovative projects in math and science.
    However, universities and colleges aren't the only organizations 
that partner with schools to improve K-12 math and science education. 
As we will hear from our witnesses, businesses and other private 
entities understand the importance of investing in math and science 
education today to produce a quality workforce in the future. Private 
entities work with schools to improve education in a variety of ways.
    As I mentioned before the markup, H.R. 4030 creates a Congressional 
Medal for private entities for outstanding contributions to math and 
science education at K-12 schools. In addition to recognizing these 
efforts, the legislation requires the National Science Foundation to 
make information about award winners publicly available so that 
examples of techniques and strategies can be utilized around the 
country.

    Chairman Smith. In a moment, I will introduce our 
witnesses, but now I will recognize Ranking Member Johnson for 
five minutes to make her opening statement.
    Ms. Johnson. Again, thank you, Mr. Chairman.
    As the cosponsor of the legislation, I speak in support of 
its favorable consideration by the Research Subcommittee today. 
It is very important that we meet to recognize the important 
contributions made by these individuals. Teachers improve the 
lives of children and their families and strive to give voice 
to their legitimate professional, economic, and social 
aspirations to strengthen the institutions in which we work, to 
improve the quality of the services we provide, to bring 
together all members to assist and support one another, and to 
promote democracy, human rights, and freedom in our union, in 
our nation, and throughout the world.
    I believe that education must be our number one national 
priority. In fact, during my almost 30 years as a legislator, I 
have fought to ensure that education is on top of the 
legislative agenda. In 1974, Mr. Chairman, I carried my first 
legislation encouraging more participation in the math and 
science by minorities and women, and we are still struggling. 
Now it needs to be everyone.
    I want to thank you for bringing H.R. 4030 before the 
Subcommittee for its consideration today, and I am pleased to 
recommend the bill to my colleagues and seek their approval for 
a favorable report of the legislation to the Full Committee.
    Thank you very much, and I look forward to hearing the 
witnesses.
    [The prepared statement of Mr. Honda follows:]

           Prepared Statement of Representative Michael Honda

    I thank Chairman Smith and Ranking Member Johnson for introducing 
this legislation and holding this hearing and markup today.
    In Silicon Valley, we have been fortunate to have companies 
involved in K-12 education in a variety of ways for many years. 
Contributions vary widely, ranging from the employees of individual 
companies such as Xilinx who donate stock options to schools to 
consortia of many companies and groups.
    Industry Initiatives for Science and Math Education (IISME) was 
founded by a consortium of Bay Area industries in partnership with the 
University of California at Berkeley. IISME seeks to transform teaching 
and learning through industry-education partnerships by focusing on 
teachers as the primary agents for effecting change and offering a 
number of professional development opportunities for professional 
development for K-12 teachers.
    Workforce Silicon Valley has brought together leading Silicon 
Valley employers, represented by the Silicon Valley Manufacturing Group 
(SVMG), with local K-12 districts, colleges and training organizations, 
employers, parents, and community members, to narrow the gap between 
the skills of Silicon Valley youth and the needs of high-performance 
organizations.
    The Resource Area for Teachers provides thousands of Bay Area 
teachers and community groups with a wide range of interactive learning 
materials, enhancing math, science, and technology programs. Materials 
are surplus items donated by over 1,000 local businesses.
    These examples represent only a small piece of the wide range of 
ways that private sector entities can help to improve our K-12 science 
education programs. All of these private entities have reasons to 
engage in this activity, primarily philanthropy but often because they 
recognize that it provides a benefit to them, in a more well-prepared 
future workforce. I don't know that the recognition of a medal is going 
to encourage more participation in such programs.
    Current efforts are certainly worthy of commendation, but I wonder 
whether it might be a better use of federal resources to work on 
improving the K-12 system so that such programs would not be necessary. 
However, if the medals program will successfully distribute information 
about the efforts going on nationwide and help generate more efforts 
like this, it may be worth the effort. At this hearing and markup, I 
hope the witnesses will enlighten us on whether these medals will 
actually encourage more of this kind of effort.

    Chairman Smith. Thank you.
    And Congresswoman Johnson, we are going to have you 
introduce our Texas guests, but I will--going down the line, 
let me start with Ms. Bailey.
    Ms. Antoinette Bailey is the Vice President of Community 
and Education Relations at the Boeing Company where she is 
responsible for corporate charitable contributions, employee 
contributions, volunteerism, external education funding and 
initiatives, and prior to the merging of Boeing and McDonnell 
Douglas, Ms. Bailey served as Vice President of Community 
Relations of McDonnell Douglas and President of the McDonnell 
Douglas Foundation. So Ms. Bailey, welcome, and thank you for 
being here.
    And our second witness, Mr. Engeln, is the Resident 
Practitioner for Business-School Partnerships at the National 
Association of Secondary School Principals. Mr. Engeln has 
nearly 30 years of experience in public education in various 
positions at Colorado high schools, including as principal of 
the William J. Palmer High School in Colorado Springs, where he 
initiated partnerships with more than 100 businesses. Mr. 
Engeln also was a finalist for Colorado Teacher of the Year and 
a recipient of the prestigious Kappa Delta Pi Award for 
outstanding contributions to education programs.
    And now for your introduction, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    It is my pleasure to introduce our invited guest from Texas 
Instruments, Mr. Torrence Robinson. Mr. Robinson is a Director 
of Public Affairs for Texas Instruments where he has focused on 
creating, promoting, and driving many of the company's 
education initiatives. After college, Mr. Robinson entered the 
information technology industry in the area of sales and 
marketing. He currently serves as Chair of the Texas Technology 
Workforce Development Program Advisory Committee, a committee 
of the Texas Higher Education Coordinating Board, and is a 
member of the Greater Dallas Chamber's Education Taskforce. He 
holds a Bachelor of Science degree in Computer Science from the 
University of Maryland, and he was the recipient of the 
National Black Engineer of the Year Award in the category of 
Corporate Promotion of Education of 2001 and is cofounder and 
advisor to the Infinity Project, a national early college math 
and science based engineering and technology initiative based 
at Southern Methodist University. I thank him for agreeing to 
testify today, and we look forward to his testimony.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you. Our next witness is a dear 
friend of this Committee, Dr. Judith Ramaley. And as I read 
through some of your qualifications, I think it is good to note 
that the reason--one of the reasons, I think, that the National 
Science Foundation has been so successful and such a good 
leader in our efforts for research and improving what we are 
doing in the efficient manner that we do is people with the 
kind of qualifications that you have, Dr. Ramaley. Dr. Ramaley 
is the Assistant Director of the Education and Human Resource 
Directorate at NSF. And prior to joining NSF in 2001, Dr. 
Ramaley was President of the University of Vermont, and before 
that, Portland State University. At both universities, she also 
held a full professorship in biology. So welcome, Dr. Ramaley.
    The fifth witness today is Mr. Gus Krudwig, a good friend 
from Jackson, Michigan. He is the founder of the Glou Factory 
in Jackson, Michigan, established in the year 2000. The Glou 
Factory supports after-school, weekend, and summer enrichment 
programs for students in areas ranging from computer technology 
to woodworking, and has been successful at bringing in 
companies and businesses to support that effort.
    So ladies, gentlemen, welcome. And your total testimony 
will be included in the record, and try to keep your testimony 
in the range of five or six minutes. We will start with you, 
Ms. Bailey.

    STATEMENT OF MS. ANTOINETTE M. BAILEY, VICE PRESIDENT, 
       COMMUNITY AND EDUCATION RELATIONS, BOEING COMPANY

    Ms. Bailey. Thank you, and good morning, Mr. Chairman and 
Members of the Committee. I am delighted to have the 
opportunity to speak with you this morning.
    As was repeated earlier, my name is Antoinette Bailey, and 
I am the Vice-President of Community and Education Relations 
for the Boeing Company. I am pleased to share with you some 
insights on the important issue of math and science education 
to the Boeing Company.
    As you are aware, and have well articulated in your 
presentation, a skilled workforce is critical to not only the 
success of technology companies, like the Boeing Company, but 
is just as critical to the success of the U.S. economy into the 
future. As the global economy has transformed over time from a 
rapid industrial expansion to the Cold War era, to the 
information age, and to what many now refer to as the knowledge 
age, it is imperative that our educational system is aligned to 
meet that challenge of producing qualified workers.
    In the aviation industry, the desired attributes of our 
workers have dramatically transformed. Boeing and other 
companies need people with great math, science, reading, and 
communication skills as well as a desire to constantly expand 
their horizons. We have moved beyond the vocational and basic 
technical skills to systems integration, working together, and 
leadership as the most important qualifications for our 
employees. The Nation's entire educational system has to work 
together to ensure that our future workforce is ready to work 
and the existing workforce has the opportunity to add new 
skills as necessary.
    Boeing has long been committed to early childhood and K 
through 12 education. Last year, we worked with education 
experts from across the country to determine the most effective 
strategies for our involvement in education. We took several 
deliberate steps before refining our education strategy. 
Initially, we conducted an environmental scan. What is really 
going on in the world of early learning and K through 12 
education and what are the facts, not merely anecdotal stories? 
What are the experts telling us?
    We consulted with not only academic experts, but also with 
others, such as people who are affiliated with the authorship 
of ``No Child Left Behind.'' Here is what we heard, and this is 
critical information for us. There are actually two boxes that 
we paid attention to. The first had to do with the Boeing 
Company. One, we needed to be introspective. We needed to 
understand our own strengths and capabilities as a company. The 
other thing that was important for us is we needed to begin to 
leverage our resources. While spreading dollars and spreading 
employee involvement tends to put the smile on the faces of 
communities, it does very little in really making a significant 
impact in education. We also needed to collaborate. It is 
impossible for us, as an industry and as a company, to 
singularly make the impact necessary in order to move our 
educational system forward.
    The second thing that we learned was in the other box, and 
that had to do with what was important in terms of our 
investments. Our investments needed to demonstrate that they 
were of extreme quality and that they were measurable. They 
also needed to be scalable. Being successful in one school or 
in one school district is not enough. We need to be able to 
replicate success. And of course, it needs to be sustainable. 
Once again, one time is not nearly sufficient.
    Our strategy is to align and leverage our resources to 
support systemic and continuous improvement in school systems 
and learning environments, concentrating on teacher 
effectiveness in literacy, math, and science. Our company's 
involvement in this strategy begins with our leadership and 
includes every segment of our employee population, no matter 
their professional role. We support initiatives that fit this 
strategy across the country where our employees live and work.
    I brought with me today an example of one of these 
programs, and if you will look either to your left or to your 
right, you will see the new wallpapering for your office here, 
and those are our ``Forces of Flight'' posters. Also attached 
is a teacher's guide in front of you. This unique program was 
developed with collaborative efforts, and it is really 
fortuitous the development, which says to us, as businesses, 
that opportunities are all around us for impacting student 
engagement in math and science. We actually have leadership who 
are going into our school systems in various communities and 
taking with them a variety of things, but with minimal 
educational value.
    Coming back to the table and taking a look at what could we 
do as we were visiting classrooms, we were able to develop, 
along with our engineers and the educational experts, what you 
see in front of you, which is a series of posters that engage 
students and excite them about the mystery of flight itself. 
This unique program, again, was developed collaboratively with 
our engineers and with the educational professionals. And more 
than 20,000 of these posters, along with the teacher's guides, 
have been distributed to schools in the U.S. and in some 
international locations. It is designed to meet the federal and 
multi-state standards in math and science while teaching the 
students the marvels of flight.
    This is just one program we are supporting at Boeing that, 
we believe, enhances the math and science skills so very 
important to the next generation of workers. One of our former 
leaders has well articulated the requirement. Workers must be 
able to draw on a solid core of knowledge and skills. They must 
be well grounded in math and science, able to read and 
comprehend complex text, and capable of writing clearly and 
cogently. This mastery is essential to our future.
    We applaud the efforts of all of those here today that are 
working innovatively to improve and highlight the importance of 
math and science education in our nation's schools. We are all 
reliant on the future workforce to ensure our company's success 
and ensure not only our country is competitive, but a leader in 
the global economy.
    Once again, I would like to thank you for the opportunity 
to speak here today.
    [The prepared statement of Ms. Bailey follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                   Biography for Antoinette M. Bailey

    Toni Bailey is responsible for all community and education 
relation's activities at The Boeing Company, including corporate 
charitable contributions, employee contributions, volunteerism and 
external education funding and initiatives.
    Prior to the merger of Boeing and McDonnell Douglas in 1997, Bailey 
was Vice President-Community Relations of McDonnell Douglas and 
President-McDonnell Douglas Foundation. She previously served as Human 
Resource Division Director for McDonnell Douglas Aerospace-East.
    Bailey joined McDonnell Douglas in 1984 as an EEO representative 
and later led the function. She then had increasing responsibilities 
that included human resource management, employment, training and 
development. She later became the Division Director for Human Resources 
and during her tenure in that discipline; she was also an adjunct 
professor at Florissant Valley Community College. Prior to joining 
McDonnell Douglas, she worked as a counselor for the Hearing-Impaired 
for the State of Missouri from 1980 to 1984.
    Bailey received a Bachelor's degree in philosophy from Southern 
Illinois University-Carbondale and a Master's degree in guidance and 
counseling at Michigan State University-East Lansing. She also 
completed post-graduate doctoral work in the field of rehabilitation 
counseling at Michigan State University from 1973 to 1975. She was a 
National Institute of Mental Health Fellow while attending Michigan 
State University and has attended executive training at The Wharton 
School. She has also been an executive in residence at Seattle 
University.
    Bailey is President of the Board of Directors of the YWCA of 
Metropolitan St. Louis, board member of The Chicago Foundation for 
Women, past Chairman of the Contributions Committee of the Conference 
Board and a member of the Advisory Council to the College of Business & 
Technology at Webster University. She is also a member of the 
International Women's Forum, the Missouri Women's Forum and the St. 
Louis Gateway Links.
    Ms. Bailey has made numerous presentations nationally and 
internationally on the subject of Corporate Citizenship and strategic 
philanthropy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Thank you.
    Mr. Engeln.

   STATEMENT OF MR. JAY T. ENGELN, RESIDENT PRACTITIONER FOR 
BUSINESS-SCHOOL PARTNERSHIPS, NATIONAL ASSOCIATION OF SECONDARY 
                       SCHOOL PRINCIPALS

    Mr. Engeln. Thank you.
    Across the Nation, from the smallest towns to the largest 
cities, the quality of virtually every community is defined by 
the strength of its public schools. While the most important 
``stakeholders'' in these schools are students and their 
parents, local employers and national businesses have a vested 
interest in the success of schools as well. School-business 
partnerships do not guarantee success. Partnerships do, 
however, provide additional resources that support teachers in 
doing what they do best. They can enhance the educational 
experience for students and afford learning opportunities that 
might not otherwise be available.
    As Senator Lamar Alexander stated, ``Partnerships between 
businesses and schools can significantly enhance the quality of 
education we are able to provide.'' Statistics show that 
successful school-business partnerships promote improved 
student achievement, reduce self-defeating behaviors amongst 
students, create better school environments, build stronger 
communities, and enhance property values. School-business 
partnerships do help support programs that positively impact 
student achievement.
    I couldn't help but notice the quote on the wall behind 
you: ``Where there is no vision, the people perish.'' Well, 
Henry Ford also stated, ``Vision without funding is just a 
hallucination.'' And as I look at business partnerships, they 
are so critical in helping schools see their educational vision 
become a reality.
    School-business partnerships at William J. Palmer High 
School in Colorado Springs directly related to math and science 
achievement involved companies and organizations, such as Texas 
Instruments, the American Cancer Society, Memorial Hospital, 
Colorado College, Pikes Peak Medical Society, the American Red 
Cross, Richard Lightle Architects, Colorado Springs Utilities, 
Six Flags Amusement Parks, Colorado Interstate Gas, The Coca-
Cola Company, and the U.S. Forest Service to name a few. 
Partnership involvement included mentor programs, internships, 
guest speakers, tutors, volunteers, motivational incentive 
programs, financial support for school programs, textbooks, 
equipment, supplies, on-site professional development for 
staff, resources to send staff and students to conferences and 
workshops, support for extracurricular activities, and programs 
for at-risk students are also benefits realized from the 
partnership relationships.
    In addition to the partnership benefits just mentioned, 
science, math, and engineering related contributions included 
partnering with companies on science fair projects, donations 
of lab equipment that exceeded what the school could afford to 
buy, support for students to attend national and international 
science fair competitions, use of sophisticated lab equipment 
for experiments, items such as electron microscope, x-ray 
machines, gas chromatographs, things we just don't typically 
have in a high school, field studies and opportunities for both 
students and teachers to attend seminars or workshops on math 
and science related topics held at local companies and colleges 
or universities.
    Partnership relationships also provided students with an 
opportunity to better understand possible career options 
related to science, math, and engineering. Seeing the relevancy 
of what is done in school and applications to the world of work 
is a strong motivator for students. Students actively explored 
career pathways and selected courses of study accordingly, 
oftentimes with input from mentors in their chosen field. There 
is clearly a need for a well-educated workforce, and 
partnerships can, and do, help in meeting this need.
    I want to share with you some information from William J. 
Palmer High School relative to what happened at our school over 
a five-year period when we had over 110 business partnerships 
involved with the school. First of all, our dropout percentage 
rate decreased from 8.4 percent to 3.4 percent. Specifically, 
with minority populations, the Hispanic dropout rate declined 
from 14.6 to five percent, for Black students, from 12.9 to 3.9 
percent. We also saw behaviors change with students. We had 
over 3,000 referrals and 698 suspensions in '95/'96. That 
dropped to 855 and 122. And during this time period, as the 
students wanted to attend our school, enrollments increased. We 
actually went from 1,080 students to 2,017. So we almost 
doubled in size and still had that decrease in referrals and 
suspensions. The honor roll also saw a significant increase, 
and this wasn't an inflated statistic, because we also saw that 
our test scores on the ACT and the SAT as well as state 
assessments went up accordingly.
    A recent study done in October of last year by the Search 
Foundation also correlates with the data from Palmer High 
School and also, I think, leads into some of the things that 
Ms. Bailey stated about leadership being important, etc. What 
we saw is that self-defeating behaviors decreased. I won't go 
into detail on this. If you just glance at this, the column on 
the right where it is high--or on the left, high exposure means 
there is more involvement in business partnership activity. Low 
exposure, less involvement. But we saw a decrease in what are 
called risk behavior patterns, but more importantly, if you go 
down here to the very bottom row and look at the increase in 
the thriving outcomes on leadership, also value and diversity 
and maintaining health, we also saw increases in those areas.
    And finally, when we get to the specifics of math and 
science and reading, again, if you look at the column, the 
third one from the right, that has to do with the high exposure 
to partnerships. We saw improved reading, about 20 percent 
higher. Reading scores in those not exposed to partnerships. 
Improved writing and improved math skills. So the data--and 
this is very preliminary data. It is the only research out 
there at this time showing that correlation between school-
business partnerships and involvement in partnership activities 
and academics.
    Teachers also felt more appreciated for their efforts. 
Having additional resources available to them for programs that 
helped students was a plus. The business community becoming 
more involved in our school fostered a positive atmosphere that 
carried over beyond the classroom walls. Teachers were 
energized by the community's support for their educational 
endeavors.
    Specifically related to science and math achievement, 
Palmer High School saw improved test scores in math and 
science-related areas. For the general student populations, 
students dominated local, regional, and state science and math 
fair competitions, sending several students to national and 
international events. Test scores on the ACT and SAT went up. 
And also, scholarships for students going on to college 
increased significantly.
    Ultimately, the bottom line is the better educated and 
prepared students are for the future, the better it is for 
businesses and our country. School-business partnerships in the 
areas of science, math, and engineering can have a positive 
impact on the academic achievement of students and provide them 
with the skills necessary to meet the challenges of the future. 
Working together, schools and businesses can achieve the 
extraordinary.
    Thank you.
    [The prepared statement of Mr. Engeln follows:]

                  Prepared Statement of Jay T. Engeln

    Across the Nation, from the smallest towns to the largest cities, 
the quality of virtually every community is defined by the strength of 
its public schools. While the most important ``stakeholders'' in these 
schools are students and their parents, local employers and other 
businesses have a vested interest in the success of schools as well. 
Challenged by budget shortfalls in the face of efforts to have all 
students meet high standards, and recognizing the link between good 
schools, student achievement and a prosperous economy, schools and 
businesses are now more ambitious and creative than ever before in 
their efforts to work together.

1.  Why did William J. Palmer High School choose to initiate 
partnerships with businesses in Colorado?

    William J. Palmer High School is located in middle of downtown 
Colorado Springs. The school was facing a multitude of problems 
including declining enrollment, poor image in the community, high 
dropout rates, a failure rate of 49 percent in the ninth grade, dated 
facilities, high numbers of discipline referrals and suspensions, and a 
lack programs that demonstrated a clear relationship to future career 
opportunities. If you purchased a home in the Palmer High School 
attendance area it was not uncommon for realtors to share with 
potential buyers information about how they could get a permit to 
attend a school other than Palmer. Virtually every store in the 
downtown area had a sign in the window stating, ``No more than two 
Palmer students allowed in store at one time.''
    In addition to the above challenges, the school district had not 
been successful in passing a bond issue in support of public schools 
for more than 25 years. The school district and William J. Palmer High 
School were facing touch financial times resulting in the elimination 
of programs and lack of resources to provide the best possible 
educational opportunities for student. During this same time period the 
downtown business community was also experiencing an economic slump. 
Business was slow and many stores were closing. People did not go 
downtown for shopping or dining.
    In light of these problems, the staff members, students, parents, 
alumni and the business community (especially the downtown businesses) 
were committed to supporting the school and providing resources that 
had a positive impact on student achievement. We felt the school was a 
part of the downtown community and the community was also a part of the 
school. Working together we saw many positive changes take place in the 
school and in the downtown business community. In fact there was an 
article in the Denver Post describing the truly symbiotic relationship 
between Palmer High School and the downtown businesses and highlighted 
the unique role the school played in the renaissance of the downtown 
area as well as the impact the business community had on the many 
positive changes in the school. School/business partnerships were 
indeed a key element school's transformation. As a direct result of 
support from the many business partners, the school was able to keep 
programs in place that had a positive impact on student achievement.

2.  How did your partners contribute to education, and math and science 
achievement in particular? What were the benefits of this involvement 
in education for your school, your teachers and your students? Did 
these partnerships have broader community impacts?

Partners Contribution to Education

    As principal at William J. Palmer High School, both my staff and I 
initiated partnerships with Colorado College, the University of 
Colorado, Pikes Peak Community College, non-profit organizations and 
Colorado Springs business entities resulting in strong community 
support for educational and extra-curricular activities. More than 100 
businesses and/or organizations were in place as partners with the 
school. A unique aspect of the school's involvement with the local 
business community was working with the Board of Directors of Downtown 
Colorado Springs, Inc., a consortium of Colorado Springs businesses 
that were committed to improving the downtown environment. Partnership 
involvement included mentor programs, internships, guest speakers, 
tutors, senior volunteers, motivational/incentive programs and 
financial support for the school's programs. Textbooks, equipment, 
supplies, on-site professional development for staff, resources to send 
staff and students to conferences and workshops, support for extra-
curricular activities and programs for at-risk students are just a few 
of the benefits realized from partnership relationships.
    Partnerships directly related to math and science achievement 
involved companies and organizations such as Hewlett Packard, Texas 
Instruments, The American Cancer Society, Memorial Hospital, Penrose 
Hospital, the Pikes Peak Medical Society, The American Red Cross, 
Richard Lightle Architects, Colorado Springs Utilities, Six Flags, 
Colorado Interstate Gas, the Colorado Springs Automobile Dealers 
Association, The Coca-Cola Company and the U.S. Forest Service. In 
addition to the partnership benefits mentioned above science/math/
engineering related contributions included partnering with companies on 
science fair projects, donations of lab equipment that exceeded what 
the school could afford to buy, support for students to attend national 
and international science fair competitions, use of sophisticated lab 
equipment for experiments (ire. electron microscope, x-ray machine, gas 
chromatographs), and opportunities for both students and teachers to 
attend seminars/workshops and science related topics held at local 
companies and colleges/universities.

Benefits for School, Teachers and Students

    School/business partnerships do not guarantee success. Partnerships 
do however provide additional resources that support teachers in doing 
what they do best. As Senator Lamar Alexander stated, ``Partnerships 
between business and schools can significantly enhance the quality of 
education we are able to provide.'' Statistics show that successful 
school/business partnerships can:

         Promote improved student achievement

         Reduce self-defeating behaviors amongst students

         Create better school environments

         Build stronger communities

         Enhance property values

    School/Business partnerships do help support programs that 
positively impact student achievement.
    As documented in the accompanying graphs covering a five-year 
period, the overall benefits for Palmer High School were significant. 
Instead of a declining enrollment, the school grew from 1,080 students 
to 2,017. The dropout rate decreased (14.6 percent to five percent for 
Hispanic students, 12.9 percent to 3.9 percent for Black students), the 
number of discipline referrals decreased from 3,157 to 855, the number 
of suspensions decreased from 699 to 122, and the number of students on 
the honor roll (3.25 GPA or higher) increased from 29.8 percent to 45.6 
percent.
    Teachers felt more appreciated for their efforts. Having additional 
resources available to them for programs that helped students was a 
plus. The business community becoming more involved in our school as 
well as our school becoming more involved in the community fostered a 
positive atmosphere that carried over beyond the classroom walls. 
Teachers were energized by the community support for their educational 
endeavors with students.
    Students likewise appreciated the business involvement. They felt 
that people cared about them as individuals. Feeling embraced by the 
community impacted their behavior and their academic achievement. The 
entire atmosphere of the school and the downtown community began to 
change. Within a year all of the signs limiting the number of Palmer 
students allowed in a store came down.
    Specifically related to science and math achievement, Palmer High 
School dominated local, regional and state science fair and math 
competitions, sending several students to national and international 
events. The school's test scores were consistently among the highest of 
any public or private school in southern Colorado and the amount of 
scholarship dollars for students going on to college increased 
significantly.

Broader Community Impact

    Across the Nation, the quality of virtually every community is 
defined by the strength of its public schools. As mentioned earlier in 
this document, the impact of partnerships on the local community was 
noteworthy. The downtown business community began to flourish and the 
overall atmosphere changed for the better. The community's image of 
Palmer students and the school changed for the better. Students were 
now welcomed into business establishments.
    Not only did the environment improve but the Board of Realtors 
reported the largest increase in property values for the Colorado 
Springs region was the attendance area served by Palmer High School. 
Not only were the partnerships good for the school, they were also good 
for business and property owners. Better schools do contribute to the 
economic health of a community.

3.  What are the hallmarks of a successful partnership between schools 
and businesses? How do you measure that success? And how are those 
successes shared with other schools and businesses?

Hallmarks of Successful Partnerships

    The Council of Corporate and School Partnerships conducted research 
with the National Association of Partners in Education to gather data 
from the field. Seeking out individuals currently engaged in business 
and school partnerships, more than 300 school administrators were 
interviewed, as well as business executives at more than 50 companies. 
These individuals helped identify what worked for them, what was 
important to them, and challenges they faced.
    The Council then translated the findings into four themes and then 
ultimately into the eight Guiding Principles for School and Business 
Partnerships. Using the research data, the Guiding Principles for 
Business and School Partnerships were developed to help partners work 
together. A copy of the Guiding Principles for Business and School 
Partnerships booklet is provided for the members of the committee.
    The Guiding Principles for Business and School Partnerships are 
designed to help educators and business leaders face educational 
challenges be developing relationships that support mutual goals, and 
offer long-term, sustainable benefits for students and schools. 
Recognizing that the needs and interests of various businesses are as 
widely diverse as the needs of small, large, urban, suburban and rural 
schools and school systems, the Guiding Principles were developed to be 
a framework for structuring partnerships, as opposed to a prescription 
for partnership particulars.
    The eight guiding principles are:

        1)  School-Business partnerships must be built on shared values 
        and philosophies.

        2)  Partnerships should be defined by mutually beneficial goals 
        and objectives.

        3)  Partnership activities should be integrated into the school 
        and business cultures.

        4)  Partnerships should be driven by a clear management process 
        and structure.

        5)  Partnerships should define specific, measurable outcomes.

        6)  Partnerships should have support at the highest level 
        within the business and school and concurrence at all levels.

        7)  Partnerships should include internal and external 
        communication plans, which clearly illustrate expectations of 
        all parties.

        8)  Partnerships should be developed with clear definitions of 
        success for all parties.

Measures of Success

    The success of a partnership can be evaluated in a multitude of 
ways. The goals and the objectives developed as part of the partnership 
process should be the focus of assessment. Partnerships should be 
guided by a collaborative agreement on outcomes, benchmarks and 
measures of progress. The partners should communicate regularly about 
the intended and actual outcomes of all partnership activities. There 
is already data collected at the school and/or district level for state 
and national accountability needs. Use of this information whenever 
possible eliminates the need to duplicate efforts. Also data used for 
tracking student attendance and discipline referrals can be used. The 
are other partnerships assessment tools available on the Council for 
Corporate and School Partnerships website at www.corpschoolpartners.org 
and the National Association of Secondary School Principals website 
www.principals.org. A Self-Assessment Tool for Partnership Improvement 
is also included in the How-To Guide for School-Business Partnerships 
developed by the Council for Corporate and School Partnerships.

Sharing Partnership Success Stories

    Schools and businesses must be proactive in sharing their successes 
relative to school-business partnerships. It is important that 
superintendents, principals, school board, CEOs and managers share 
partnerships successes both internally and externally on a regular 
basis. Allow opportunities for private and public recognition of 
partnership success. Share the good news!

Sharing Successes With Other School and Businesses

    Workshops and/or presentations for school and business leaders are 
one way to share information about what works and work doesn't work 
relative to school/business partnerships. Equally important is sharing 
information about successful partnerships and providing schools and 
businesses with the tools to help them establish true partnerships--
relationships that build upon shared understanding of the values that 
support mutual needs.
    Sharing the Guiding Principles for Business and School Partnerships 
and the How-To Guide for School-Business Partnerships with educational 
and business leaders can serve as a foundation upon which to build 
relationships that support mutual goals and offer long-term, 
sustainable benefits for students, schools and communities. Through the 
development of school-business partnerships, communities would see 
added value to their school environment and ultimately additional 
support for the educational mission of the school.

4.  How can we encourage more businesses and their employees to partner 
successfully with struggling schools? How would a national recognition 
and information dissemination program, as envisioned by H.R. XXXX, 
help?

Encourage Partnering With Struggling Schools

    Recent research conducted by the National Association of Partners 
in Education in conjunction with the Search Institute shows a positive 
relationship between student involvement in partnerships activities and 
success in school. Not only does the research show a trend toward 
improved achievement, but also a reduction in ``Risk Behaviors'' such 
as alcohol use and discipline problems at school. An increase in 
``Thriving Outcomes'' was also noted in behaviors related to health 
habits, valuing diversity and demonstrating leadership. The data from 
Palmer High School mirrors the results of the Search Institute.
    Improved student achievement, reduction in self-defeating behaviors 
and an increase in positive outcomes should be incentive for increased 
business involvement. Ultimately, the bottom line is the better 
educated and prepared students are the better it is for businesses and 
our country. Working together we can achieve the extraordinary!

National Recognition Program

    As mentioned earlier, sharing information about successful 
partnerships helps other schools and businesses see the positive impact 
of school/business partnerships. Recognition programs do help get the 
word out to others and gives schools and/or businesses potential models 
and/or contacts to use in setting up their own partnership programs.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                      Biography for Jay T. Engeln

    Jay Engeln of Colorado Springs, Colorado serves as the NASSP 
Resident Practitioner for Business-School Partnerships. During his 
twenty-eight years in public education, Engeln served as principal of 
Mountain Vista High School in Highlands Ranch, Colorado (two years), 
William J. Palmer High School in Colorado Springs (seven years), and 
assistant principal at Coronado High School in Colorado Springs (four 
years). In addition he taught science for fifteen years and coached 
soccer and hockey. He received the U.S. West Outstanding Teacher Award, 
was a finalist for Colorado Teacher of the Year and twice nominated by 
the Colorado Department of Education for the President's Award for 
Excellence in Teaching Science and Math. He received the Kappa Delta Pi 
Award from the Colorado College Education Department for outstanding 
contributions to education programs. In 1999, he was selected as the 
Colorado Principal of the Year and in 2000 the NASSP/MetLife National 
Principal of the Year. In addition to achievements in education, Engeln 
was twice named the Colorado Soccer Coach of the Year and in 1985 
selected as the National High School Soccer Coach of the Year.
    As principal at William J. Palmer High School, Engeln and his staff 
initiated partnerships with Colorado College, the University of 
Colorado, Pikes Peak Community College, and numerous Colorado Springs 
business entities resulting in strong community support for educational 
and extra-curricular activities. More than 100 businesses were in place 
as partners with the school. A unique aspect of Engeln's involvement 
with the local business community was working with the Board of 
Directors of Downtown Colorado Springs, Inc., a consortium of Colorado 
Springs businesses that were committed to improving the downtown 
environment. Partnership involvement included mentor programs, guest 
speakers, tutors, senior volunteers, motivational programs and 
financial support for the school's programs. As a direct result of 
support from the many business partners, the school was able to keep 
programs in place that had a positive impact on student achievement. 
Engeln was invited to speak at the White House Conference on Teenagers 
to share ideas related to success of business and community involvement 
in the school.
    Engeln recently completed a term as President of the 15,000 member 
National Soccer Coaches Association of America. His responsibilities 
focused on facilitating the growth and development of programs 
supporting soccer coaches of all age groups (youth-collegiate) in the 
United States. Business partnership programs he personally initiated 
and implemented, such as the Taos Pueblo Soccer Project and the Santa 
Fe Indian School Project, have been featured in the Soccer Journal as 
well as televised on the Sports Channel and ESPN.
    Engeln feels that the challenges we are facing in education are 
immense and how we address these critical issues will have a 
significant impact on our country for years to come. Educators today 
face some of the most challenging conditions ever encountered in the 
history of our profession. In light of these many challenges, one thing 
becomes very clear--schools cannot do it alone.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Thank you.
    Mr. Robinson.

   STATEMENT OF MR. TORRENCE H. ROBINSON, DIRECTOR, FEDERAL 
                   AFFAIRS, TEXAS INSTRUMENTS

    Mr. Robinson. Good morning, Mr. Chairman, Congresswoman 
Johnson, and Members of the Subcommittee. Again, my name is 
Torrence Robinson, and I am Director of Public Affairs for 
Texas Instruments. I am pleased to comment on the legislation 
to honor outstanding contributions in K-12 math and science 
education and to talk about TI's perspective on it.
    First, I would like to commend the Committee for all its 
work over the last several years to improve math and science 
education and to excite more children to embrace these 
disciplines. America's economic and national security depends 
upon the future scientists, engineers, and mathematicians that 
will keep us on the competitive edge.
    Texas Instruments supports the Committee's efforts to 
acknowledge those private entities that provide exemplary 
contributions to K-12 math and science education. In doing 
this, you have an excellent opportunity to highlight and 
disseminate effective programs and also align philanthropic and 
for-profit efforts toward a common objective. Increasingly, 
companies are seeking out and supporting programs that are 
effective and yield real results. This legislation can help 
push this effort to a higher level.
    Now my written testimony includes a few suggestions for 
narrowing and strengthening the criteria for recognizing 
programs. We are pleased that the criteria give priority 
consideration to those programs with evidence of improved 
student achievement. That must be the ultimate goal.
    The importance TI places on K-12 math and science is due in 
part to our corporate culture and the changing skills and 
education required of our technical workforce. Today, the 
majority of TI's investment in higher education is directed to 
research or the development of a technical workforce in 
science, technology, engineering, and mathematics. But we also 
recognize that in order to support long-term growth and 
improved competitiveness, it is critical that we invest in the 
K-12 education pipeline. And we have been doing so for many 
years.
    TI hires employees with a variety of skills, but our needs 
are evolving. Semiconductor manufacturing has migrated from an 
era of placing a high value on manual dexterity on the assembly 
line to one of mental dexterity on the clean room floor. We are 
expecting more knowledge and skills of manufacturing 
specialists, technicians, and our engineers.
    In our K-12 activities, we look to promote educational 
improvement by developing and supporting programs that yield 
measurable results and that can be replicated elsewhere. I have 
highlighted one for discussion today. The Infinity Project is a 
math and science-rich engineering curriculum for high school 
students created in collaboration with the Institute for 
Engineering Education at Southern Methodist University and TI. 
It is changing student attitudes towards math, science, and 
engineering by exciting students about real-world technology 
applications that are relevant to their lives: applications 
such as cell phones, MP3 players, the digital special effects 
that you see in movies, and much more. This full-year 
curriculum is helping both students and teachers answer that 
age-old question, ``Why do I need to learn this math?'' By 
linking fundamental math concepts found in algebra II to cool 
applications, students are better prepared and motivated to 
pursue higher level math and science courses and consider 
engineering and technical degrees.
    A hallmark of the program's early success has been the open 
communication between Infinity Project staff and classroom 
teachers in the development and implementation of the 
curriculum. It is that give and take that has provided a deep 
understanding of student, teacher, principal, and district 
administrator needs.
    The Infinity Project is in its third year and has been 
introduced in several schools across Texas and in 19 other 
states. Early data indicates that 65 percent of the students 
who complete the course say they are interested in pursuing 
engineering in the future. But nationally, only two percent of 
the graduating high school population goes on to receive an 
engineering degree. We hope that Infinity will help boost those 
numbers. A more detailed, multi-year assessment of the program 
and its impact on student achievement and post-secondary 
technical discipline enrollment rates will begin in the fall of 
2004.
    Again, I want to commend the Committee for its tireless 
work in support of math and science excellence, and at the 
appropriate opportunity, I would be glad to answer any 
questions that you have.
    [The prepared statement of Mr. Robinson follows:]

               Prepared Statement of Torrence H. Robinson

    Good morning Mr. Chairman, Congresswoman Johnson and Members of the 
Subcommittee; my name is Torrence Robinson and I am Director of Public 
Affairs for Texas Instruments. I am pleased to be here today to comment 
on the Congressional Medal for Outstanding Contributions in Math and 
Science Education Act and to talk about TI's perspective on K-12 math 
and science education.
    First, I'd like to commend this committee for all its work over the 
last several years to improve math and science education in the United 
States and to excite more children to embrace and explore these 
disciplines of study. As you well know, America's economic and national 
security is inextricably linked to our technological advancement. And 
that advancement depends on educating the future scientists, engineers 
and mathematicians that will develop the new tools, designs and 
manufacturing and information systems that will secure and promote 
America's competitive edge.

Congressional Medal for Outstanding Contributions to Math and Science

    Texas Instruments supports the Committee's efforts to acknowledge 
those companies and organizations that provide exemplary contributions 
to K-12 math and science education. In doing this, you have an 
excellent opportunity not only to highlight and help disseminate 
effective programs, but also to help align both philanthropic and for-
profit efforts toward a common objective. Companies are driven by 
results in almost everything we do, but when it comes to philanthropic 
giving, the business community is still in an evolutionary mode. 
Increasingly companies are trying to seek out and support those 
programs that are effective and yield real results, while moving away 
from those programs that may not meet the bar. This legislation can 
help push that effort to a higher level.
    We are very pleased that the proposed legislation contemplates 
recognizing a small number of programs annually, as we believe that 
will drive excellence and promote recognition of only the best.
    We are also pleased that the selection criteria give priority 
consideration to those programs with evidence of improved student 
achievement. That must be the ultimate goal.
    We applaud those provisions that require real metrics, such as a 
demonstration of increased interest by students in science, technology, 
engineering and mathematics as evidenced by an increase in the number 
of students enrolled in advanced courses related to such fields. 
Metrics that merely present numbers of students, teachers or employees 
who are touched/involved in these disciplines or that focus on ``soft 
outcomes'' are not sufficient.
    In that vein, we would like to suggest other criteria that we feel 
would help this program be a catalyst for excellence:

        1.  Require that the program demonstrate how it supports and/or 
        builds upon state standards in mathematics and/or science. 
        Programs that do not support or enhance state standards can be 
        a distraction to schools trying to comply with the requirements 
        of No Child Left Behind, particularly in low performing 
        schools. Mike Moses, the Superintendent of Schools for the 
        Dallas Independent School District calls unaligned programs 
        ``random acts of kindness'' that while well-intentioned, do not 
        move the ball any closer to the ultimate goal.

        2.  Require programs that involve professional development to 
        tie into the No Child Left Behind requirement ensuring that 
        teachers are highly qualified. Study after study demonstrates 
        that teacher quality is a key determinant of student success. 
        Private sector efforts should support that goal.

        3.  Require that programs be replicable and identify the key 
        elements for successful implementation.

        4.  Require that the recognized programs show at least three 
        years of sustainable results.

        5.  Strengthen the criteria around employee interaction with 
        students and teachers to ensure some demonstrable result, i.e., 
        increased test scores, students taking tougher courses, etc.

        6.  Require that programs that promote career awareness show 
        clear linkages to standards and to demonstrable results.

    America is at a crossroads, both in terms of how it responds to the 
competitive pressures of a worldwide economy and in terms of the focus 
and priority it gives to ensuring that all students are prepared with 
the math, science and literacy skills needed to succeed in that 
economy. Business, government and the academic establishments need to 
work together, now more than ever, to ensure that we are achieving the 
right goals and that we are equipping our children with the world-class 
education they need. This legislation can be an effective tool in 
aligning private sector resources around this objective.

Texas Instruments and K-12 Education

    The importance TI places on K-12 math and science education is due 
in part to our corporate culture and to the changing skills and levels 
of education we require of our technical workforce. TI Founders 
understood the need for highly skilled engineering talent to support 
the company's growth and competitiveness. As a result they founded what 
later became the University of Texas at Dallas in 1961 to help supply 
the North Texas region and the company with Master's level graduates in 
engineering. Today the vast majority of our investment in higher 
education is directed toward research or the development of a technical 
workforce in science, technology, engineering and mathematics.
    Our hiring challenges and our involvement in public policy at the 
local, state and national levels, however, made it clear to us that in 
order to support long-term growth and improve our competitiveness in a 
worldwide marketplace it was imperative that we invest in the K-12 
education pipeline. And we have been doing so now for many years. In 
addition to the direct benefit of providing a highly qualified 
workforce, TI believes that having a high quality education system 
helps to strengthen the overall quality of life in our plant site 
communities.
    TI hires employees with skills at different levels, but our needs 
are evolving. Semiconductor manufacturing has migrated from the era of 
placing a high value on manual dexterity on the assembly line to one of 
mental dexterity on the clean room floor. A TI manufacturing specialist 
must have a basic knowledge of math and science skills. Our technicians 
must have an associates' degree in semiconductor manufacturing 
technology and pass a comprehensive test that covers basic electronics, 
applied physics and basic chemistry.
    In addition, because of the continuing complexity of the design 
process and other technological advances, more is expected from 
engineering graduates in terms of the breadth of their engineering 
coursework exposure and experiences at all levels of higher education--
BS, MS and Ph.D.
    In our K-12 activities we look to create opportunities for 
educational improvement by developing and supporting programs that 
yield measurable results and that can be replicated elsewhere. I have 
highlighted two for discussion today:

    The Infinity Project [SM] is a math and science-rich engineering 
curriculum for high school students created in collaboration between 
the Institute for Engineering Education at Southern Methodist 
University and TI. It is achieving success by helping change student 
attitudes towards math, science and engineering by exciting students 
about real world technology applications that are relevant to their 
lives, such as cell phones, MP3 players, digital special effects in 
movies and much more. This full-year curriculum is helping both 
students and teaches answer the age-old question, ``Why do I need to 
learn this math?'' By linking fundamental mathematical concepts found 
in Algebra 2 (like polynomials and matrices) to the fascinating and 
cool applications, students are better prepared and motivated to pursue 
higher level math and science courses and to consider pursuing 
engineering and technical degrees.
    A hallmark of the program's early success has been the open 
communication between the Infinity Project and classroom teachers as 
the curriculum was developed and as it continues to be implemented. 
That two-way ``give and take'' has provided a deep understanding of 
student, teacher, principal and district administrator needs.
    The Infinity Project is in its third year and has been introduced 
in several schools across Texas and in 19 other states. Early data 
indicates that 65 percent of the students who complete the course say 
they are interested in pursuing engineering in the future. Nationally 
only two percent of the graduating high school population goes on to 
receive an engineering degree. We hope that Infinity will help boost 
those numbers. A more detailed, multi-year qualitative assessment of 
the program and its impact on student achievement and post-secondary 
technical discipline enrollment rates will begin in the fall 2004.

    Advanced Placement Strategies, Inc. is a non-profit organization 
that works with Texas schools and the private sector to plan and manage 
Advanced Placement (AP) and Pre-AP incentive programs for teachers, 
students and schools. The program was created by the O'Donnell 
Foundation and is currently supported by the Texas Instruments 
Foundation and others. The program is designed to encourage students to 
take more rigorous college-level course work in high school, which 
prepares them for success in post-secondary education, as well as high-
tech careers. The program provides financial incentives to teachers and 
students that are based upon achieving academic results, namely passing 
the AP test. Other program components include Pre-AP teacher 
preparation and support; student support, including tutoring, prep 
sessions and summer academies; and student exam fees for AP and PSAT 
exams.
    As a result of the AP Incentive program operated in the Dallas 
Independent School District, the 10 DISD Incentive Schools have seen 
the number of passing scores for all students in math and science grow 
786 percent from pre-incentive program levels (from 71 students passing 
in 1995 to 629 passing in 2003).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition the number of passing scores for African-American and 
Hispanic students in math, science and English has grown 1493 percent 
from pre-incentive program levels (29 students passing in 1995 to 462 
in 2003).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It is no secret which academic coursework is needed to develop the 
background that good engineers need to compete in the global 
marketplace. Engineers require extensive K-12 instruction in 
mathematics, science and technology, in particular, courses such as 
Algebra 2, calculus, physics, computer science, English, and if they 
can find it, an actual course in engineering. It is through these 
academic experiences that students become proficient in thinking 
critically, solving problems and communicating effectively.
    TI engages in a number of other programs in our communities to 
advance educational excellence. And our graphing technology business, 
which is well known in middle and high school classrooms, also gears 
its professional development activities toward achieving results. The 
discipline of the No Child Left Behind Act and its requirement for 
evidence of effectiveness in raising student achievement has been an 
important tool in focusing schools, teachers, students and businesses 
on meeting that objective.
    Again, I want to commend the Committee for its tireless work in 
support of math and science excellence. I am happy to answer any 
questions you might have.

                   Biography for Torrence H. Robinson

    Torrence Robinson is a Director of Public Affairs for Texas 
Instruments where he is focused on crafting, promoting, and driving 
many of the company's education initiatives. After receiving his BS 
degree in computer science from the University of Maryland, College 
Park, Torrence entered the information technology industry in the area 
of sales and marketing. Subsequently, his focus migrated toward 
building programs that impacted engineering education and research as 
the TI Worldwide Digital Signal Processor (DSP) University Program 
Manager. He currently serves as Chair of the Texas Technology Workforce 
Development Program Advisory Committee, a committee of the Texas Higher 
Education Coordinating Board and is a member of the Greater Dallas 
Chamber's Education Taskforce. Torrence was recipient of the national 
Black Engineer of the Year Award in the category of Corporate Promotion 
of Education in 2001 and is Co-founder and advisor to the Infinity 
Project--a national early college math- and science-based engineering & 
technology initiative based at Southern Methodist University.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Mr. Robinson, thank you.
    And Dr. Ramaley.

    STATEMENT OF DR. JUDITH A. RAMALEY, ASSISTANT DIRECTOR, 
  EDUCATION AND HUMAN RESOURCES DIRECTORATE, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Ramaley. Thank you, Chairman Smith, Ranking Member 
Johnson, and distinguished Members of the Subcommittee. I am 
very pleased to have the opportunity to talk with you today 
about your proposed legislation.
    As you know, the Administration broadly promotes 
partnerships and collaborations of many kinds across the 
Federal Government, with the private sector, with other 
employers, and with community groups. Any actions that would 
encourage and recognize the importance of these undertakings, 
some of which you have already had described to you this 
morning, will be greatly beneficial to our efforts to promote 
science, technology, engineering, and mathematics education. 
Alliances that engage broad and diverse sectors of society in 
promoting student interest and improving achievement and 
quality of life, as you have heard, can contribute 
significantly to preparing citizens to fully participate in our 
democracy and are very important for our progress and our 
growth.
    We would, however, like to recommend some possible changes 
to the legislation that we believe would strengthen its impact. 
The first is to expand educational levels beyond K-12. The bill 
you just marked up focuses on partnerships to improve the 
achievement of students at K-12 level. We believe it should be 
broadened to address the whole educational spectrum, from pre-K 
through higher education, including community colleges. Each 
educational level offers opportunities and challenges that can 
be fruitfully addressed by partnerships such as these. In fact, 
over 70 percent of all high school graduates will now go on to 
some form of post-secondary education, and the contributions of 
employers will be critical to their success. It is no longer a 
question of whether students will go on to some form of 
college, it is a question of when.
    My written testimony provides a number of examples of those 
promising and successful collaborations at K-12, especially in 
our Math and Science Partnership program, but also in higher 
education, with an emphasis on advanced technological 
education, which I know is of great interest to the Committee.
    Our second point is that the Committee consider expanding 
the types of employers and organizations eligible for this 
award. H.R. 4030 targets for recognition private entities, 
their employers, and employees who partner with educational 
institutions. Broadening the types of entities eligible to be 
recognized for engaging in productive partnerships would 
greatly enhance the diversity of the opportunities available. 
The goals of the program would be promoted by recognizing other 
employers, such as not-for-profits, local government entities, 
medical care providers, and the like. Often in smaller 
communities, especially, these are the major employers and will 
be asked to play significant roles in both K-12 and post-
secondary education.
    The third recommendation we have is that while we recognize 
and applaud the importance of a fact-based mechanism for 
determining the impact of these awards, time should be allowed 
for that impact to be discernible. The Administration feels two 
years may not be enough time for a collaboration to mature and 
to demonstrate not only its effectiveness but also its 
sustainability over time. And we hope you might consider more 
flexibility in that regard.
    Finally, I can not resist saying, since I am from the 
National Science Foundation and would be asked by you to 
implement this program, that it is not cost-free. A realistic 
appraisal of the cost of the program needs to be made. It 
includes everything from advertising it, reviewing it, 
designing and paying for the Medals, and publicizing 
recipients. Based on our experience with the National Medal of 
Science Award, the National Science Board, which administers 
that very important award, estimates the program might cost 
about $750,000 a year and if, as is our habit in other 
programs, we were to accompany this with additional support to 
allow for the extension or development of the promising and 
successful work, the costs would be much higher.
    Our proposed next steps, since we believe strongly in the 
importance of this work, would be to call a workshop together 
that would consist of people like those on this panel, perhaps 
even members of this panel, as well as members of our own 
Corporation and Foundation Alliance, with suggestions from 
other science-based agencies, who also foster this kind of 
work, to design the program to work out the important questions 
we would have about the nature of the award, the activities 
that would surround it, and so on. We would propose, therefore, 
to make sure that we work closely with employers in developing 
the award.
    Mr. Chairman and Members of the Committee, I want to thank 
you again for the opportunity to testify, but also to thank you 
for your long-standing support for the National Science 
Foundation, and in particular, the part closest to my heart, 
education.
    Thank you.
    [The prepared statement of Dr. Ramaley follows:]

                Prepared Statement of Judith A. Ramaley

    Chairman Smith and distinguished Members of the Subcommittee, I 
appreciate the opportunity to testify on behalf of the National Science 
Foundation (NSF) concerning your proposed legislation to establish the 
Congressional Partners in Education Gold Medal Program.
    Mr. Chairman, as you know, the Administration broadly promotes 
partnerships and collaborations across the Federal Government and with 
the private sector. Any actions that would encourage and recognize the 
importance of these undertakings are to be commended, and the 
Administration appreciates the Chair's interest in and support of 
collaborations. Alliances that engage broad and diverse sectors of 
society in promoting student interest and improving achievement in 
science, technology, engineering and mathematics can contribute 
significantly to preparing citizens to fully participate in our 
democracy, and are very important to our nation's progress and growth.
    However, there are several issues raised by the draft legislation 
that should be addressed before a final version of the bill is 
considered.

1.  Expand educational levels impacted beyond K-12. The current draft 
of the bill focuses on partnerships that aim to improve achievement by 
students at the K-12 level. It should be broadened to address the whole 
educational spectrum, from pre-K through higher education, including, 
of course, community colleges. Each educational level offers 
opportunities and challenges that can be fruitfully addressed by 
partnerships with sectors of society whose primary activity is not 
education.

      Examples of the broad range of public-private partnerships that 
support educational excellence in science, technology, engineering and 
mathematics (STEM):

        <bullet>  While it is still too early to verify the impact on 
        enhanced student learning, several Math and Science Partnership 
        (MSP) projects illustrate the diversity and scope of 
        collaborations that are having considerable impact on brining 
        disparate stakeholders together to enhance STEM education at 
        various levels. For example, the El Paso Collaborative for 
        Academic Excellence is engaging local school districts with 
        scientists, mathematicians and engineers from the University of 
        Texas at El Paso and the El Paso Community College to support 
        the improvement of Pre-K-12 instruction and achievement in 
        mathematics and science for all students. In addition to the 
        core partners, which also include 12 independent school 
        districts, the Region 19 Education Service Center, the El Paso 
        MSP also includes such civic, business and community leaders as 
        the Greater El Paso Chamber of Commerce, the El Paso Hispanic 
        Chamber of Commerce, the El Paso Black Chamber of Commerce, the 
        Texas Business and Education Coalition and the Interreligious 
        Sponsoring Organization, as well as the Mayor of El Paso and 
        the El Paso County Judge. The project focuses on enhancing 
        teacher quality, quantity, and diversity; building the capacity 
        to provide high quality curriculum instruction and assessment; 
        supporting research to inform program design; and promoting 
        institutional change.

        <bullet>  Building for Tomorrow (BFT) is a National Science 
        Foundation funded project under the NSF Advanced Technological 
        Education (ATE) program. The BFT grant is a 2001, three-year, 
        $640,000 award to the New Jersey Center for Advanced 
        Technological Education at Middlesex County College (MCC) in 
        partnership with Johnson and Johnson, the New Jersey Chamber of 
        Commerce, and FIRST Robotics. The key objective of BFT is to 
        increase the number of students (particularly those 
        underserved) in urban school districts participating in 
        national STEM competitions such as FIRST robotics, BOTS 
        robotics, LEGO, Math Olympiad, and Science competitions. Under 
        the grant, BFT is managed by the New Jersey Center for Advanced 
        Technological Education, which has conducted one-week summer 
        workshops in New Jersey, Illinois, Missouri and California with 
        nationwide school attendance. With the aim to empower teachers, 
        the grant funds the attendance of five (5) faculty from up to 
        seven (7) urban district high schools and middle schools. The 
        faculty receive training to build leadership, project 
        management, team development and industry-partnering skills. 
        The faculty teams are challenged to build robots and compete 
        against each other by the end of the workshop. The grant also 
        funds $1000 to each school that enters a national STEM 
        competition after completion of the workshop.

        <bullet>  Bellevue Community College in the State of Washington 
        has teamed with Microsoft Corporation and the American 
        Association of Community Colleges (AACC) to develop the first 
        systematic, nationwide plan for faculty development in the 
        field of information technology (IT). The Working Connections 
        IT Faculty Development Institute aims to provide early training 
        for community college instructors on emerging IT workforce 
        requirements.

        <bullet>  A Regional Center for Nanofabrication Manufacturing 
        Education, supported by NSF's Advanced Technological Education 
        (ATE) program, is a partnership for enhancing nanotechnology 
        education. The partners include the State of Pennsylvania, Penn 
        State University, Pennsylvania's community colleges, the State 
        System of Higher Education, Penn College of Technology, 
        CAMtech, MET Inc., secondary schools, private industry, and 
        other participants. The primary goal of the Center is to use 
        the resources of the Penn State Nanofabrication Facility to 
        develop and support K-12 and post-secondary nanotechnology 
        awareness and education. The Center is dedicated to introducing 
        students to the full range and full impact of nanofabrication 
        applications, including biotechnology, pharmaceuticals, 
        optoelectronics, information storage, materials manufacturing, 
        and many others.

        <bullet>  At National Instruments in Austin, Texas, the 
        company's LabView software is a key component in the successful 
        LEGO RoboLab products and curriculum. More than 10 percent of 
        the company's engineers have gone through training conducted by 
        the college of engineering at the University of Texas-Austin 
        that is intended to make them effective classroom resources for 
        teachers. After training, these practicing engineers serve as 
        mentors, advisors, and collaborators for individual teachers in 
        the community.

2.  Expand types of employers and organizations eligible beyond the 
private sector. H.R. 4030 targets for recognition private employers and 
their employees who partner with educational institutions. Broadening 
the types of entities that are eligible to be recognized for engaging 
in productive partnerships would greatly enhance the diversity of 
opportunities available, the number of participants engaged, and the 
potential impact of the program. The goals of the program would be 
promoted by recognizing efforts by a greater diversity of employers, 
including nonprofits, local government agencies, other federal 
entities, etc. For example, partnership involving educational 
institutions at one level working to improve achievement of students at 
another could also be eligible for recognition (e.g., institutions of 
higher education partnering with elementary schools to supplement the 
expertise of K-12 teachers and improve learning by K-12 students, and 
in complementary fashion, teachers at the K-12 level partnering with 
higher education institutions to provide enriching experiences for 
those preparing to be teachers).

      Examples of the involvement of a wide range of employers and 
community organizations in the enhancement of STEM education:

        <bullet>  In addition to the project in El Paso previously 
        mentioned, the Math Science Partnership project lead by Hofstra 
        University, which is improving teaching and learning in middle-
        level mathematics in ten school districts in New York. Its core 
        partners include Hofstra University, the State University of 
        New York at Stony Brook, the New York State Education 
        Department, and ten Long Island school districts. Supporting 
        partners include a local government social service agency (Long 
        Island Family and Children's Association): UCLA Center for 
        Mental Health in Schools: Carolina Biological Supply: Long 
        Island Regional School Support Center: Boards of Cooperative 
        Educational Services: professional teacher associations in 
        science, mathematics, and technology: Brookhaven National 
        Laboratory: and the Eisenhower Regional Alliance for 
        Mathematics and Science Education.

        <bullet>  The American Association of Community Colleges' 
        Working Connections program and the National Workforce Center 
        for Emerging Technologies with support from NSF's ATE program, 
        offers a fast track to the Security+ certification course 
        through the 2004 Working Connections summer institutes in 
        California, Michigan, North Carolina and Texas. CompTIA, 
        McGraw-Hill Technology Education and LearnKey's OnlineExpert 
        have partnered in this grant providing certification exams, 
        textbooks and courseware. The goals of this course are two-
        fold: (1) to provide community college faculty the knowledge 
        and practical skills they need to pass the Security+ exam; and 
        (2) to provide faculty with a set of labs that they can 
        implement on their campuses in introductory level network 
        security courses.

        <bullet>  In Delaware, DuPont has partnered with the Delaware 
        Department of Education, the Delaware Foundation for Science 
        and Mathematics Education, the Delaware Science Coalition, 
        public universities and others in the private sector to provide 
        assistance in achieving the math and science standards adopted 
        in 1995. The success in Delaware has encouraged DuPont to 
        replicate its model in other regions where they have 
        manufacturing facilities, such as Alabama, Tennessee, 
        Pennsylvania, New Jersey and South Carolina. In South Carolina, 
        as in Delaware, private industries have worked closely with the 
        State's Department of Education, the National Science Resource 
        Center, and employees of the partners to embed standards-based, 
        inquiry-driven science teaching and learning into the school 
        system.

3.  Require that partnerships demonstrate achievement and 
sustainability. The bill proposes to consider for recognition 
collaborations that have existed for at least two years. The 
Administration feels that two years may not be enough time for a 
collaboration to mature and demonstrate sustainability. Two years is 
also insufficient time to gather the evidence needed to document 
improved achievement by students or a meaningful impact on the 
participating organizations or the community-at-large. It would be more 
appropriate to consider partnerships that have been in place for a 
longer period of time, perhaps 4-5 years, while recognizing that some 
collaborations may be able to demonstrate real educational gains in a 
shorter period of time.

4.  Costs of program. A realistic appraisal of the cost of the program 
needs to be made. In general, this would include the costs to: 
advertise the program, review nominations; design and pay for the 
medals, hold an awards ceremony and associated conference to recognize 
recipients, and publicize the recipients in appropriate venues. Based 
on experience with the National Medal of Science award, the National 
Science Board estimates that the program would cost approximately 
$750,000 a year for each of the first 2-3 years and somewhat less per 
year beyond that. If the award were to be accompanied by additional 
support to allow for the extension or development of the promising work 
being recognized, the costs would be much higher.

Proposed Next Steps

    In addition to the recommendations contained above, there are a 
number of issues that would need to be resolved before the 
Congressional Medal for Outstanding Contributions in Math and Science 
Education could be put in place. The elements to be resolved include 
the nature of the award itself (e.g., an actual medal, a plaque, or a 
well-designed object made of crystal); the activities that might 
surround the awarding of the medal/plaque and who would participate; 
the mechanism of reviewing the nominations; the nomination process 
itself and the criteria to be used in evaluating potential recipients; 
and expectations regarding publicity both for the program and for the 
recipients. We believe that these issues should be specifically 
addressed in the legislation. If H.R. 4030 were to become enacted into 
law, NSF would collaborate with the Department of Education to identify 
finalists for the Medal.
    NSF would propose to explore the contributions of employers/
employees at a workshop on public/private partnerships in support of 
STEM education to identify lessons learned and best or promising 
practices. This workshop would also be used to develop a design for the 
proposed Congressional Partners in Education Gold Medal Program. We 
would invite participants from some of the most successful 
collaborations that we have supported, as well as representatives from 
our Corporate and Foundation Alliance (CFA). The CFA periodically 
brings together nearly 40 leading corporations and private 
philanthropic organizations to discuss successful programs, learn about 
NSF programs and research initiatives, share ideas about effective ways 
to sponsor change in STEM education, and collaborate with each other 
and with NSF in addressing areas of vital need.
    Mr. Chairman, thank you again for the opportunity to testify. I 
want to thank you and your Subcommittee for its long-standing support 
for NSF in general, and for NSF's educational efforts in specific.
    I would be pleased to respond to any questions you may have.


                    Biography for Judith A. Ramaley

    Dr. Judith A. Ramaley is a nationally recognized leader in science, 
technology, engineering, and mathematics (STEM) education. As Assistant 
Director of the National Science Foundation (NSF), she manages the 
education program portfolio of its Directorate for Education and Human 
Resources (EHR). Dr. Ramaley is also a presidential professor in 
biomedical sciences at the University of Maine, Orono, and a fellow at 
the Margaret Chase Smith Center for Public Policy. Prior to her NSF 
appointment in August of 2001, she was President of the University of 
Vermont from 1997 until 2001, and President of Portland State 
University in Oregon from 1990 until 1997. She held full professorships 
in biology at both universities.
    Since coming to NSF, Dr. Ramaley has sharpened the Foundation's 
focus on goals and capacity-building strategies to meet the lifelong 
learning needs of a changing student population and the demands of a 
science and technology-fueled economy. She brings to NSF her long-time 
professional interest in workforce development and the role of the 
higher education institution in community and economic development.
    In Vermont, Dr. Ramaley was a Director of the Vermont Business 
Roundtable, a member of the Human Resources Investment Council (HRIC), 
a member of the Vermont Commission on Higher Education Funding, a 
member of the Governor's Council of Economic Advisors, and Co-chair of 
the Vermont Campus Compact. Under her leadership, the University of 
Vermont became a member of the Kellogg Commission on the Future of 
State and Land-Grant Universities which explored the role of research 
universities in the 21st century.
    At Portland State, she led the initiative that established the 
Portland Educational Network (PEN), which supports collaboration among 
K-12 schools, community colleges, and public four-year institutions in 
Washington State and Oregon. During her tenure, Portland received a 
Kellogg Leadership Award for institutional transformation and a Pew 
Leadership Award for reforming undergraduate education.
    At the national level, Dr. Ramaley currently serves as a member of 
the Board of the American Association for Higher Education. She is also 
a trustee of Wilmington College in Ohio. Previously, she has served as 
a member of the National School-to-Work Advisory Board and a board 
member for the Association of American Colleges and Universities 
(AAC&U). She was also Chair of the AAC&U's Greater Expectations Panel 
to define and realize quality in 21st century undergraduate education. 
She was a member of the presidential advisory panel for the Association 
of Governing Boards (AGB), and Chair of the Subcommittee on College 
Drinking of the Advisory Council of the National Institute on Alcohol 
Abuse and Alcoholism.
    Dr. Ramaley received her Bachelor's degree from Swarthmore College 
in 1963 and earned a doctorate from the University of California, Los 
Angeles, in 1966. She was a post-doctoral fellow at Indiana University, 
and an American Council on Education fellow at the University of 
Nebraska Medical Center at Omaha. Dr. Ramaley was the executive vice 
chancellor at the University of Kansas from 1987 to 1990. From 1982 to 
1987, she served as the Chief Academic Officer at the State University 
of New York (SUNY)-Albany. She has two sons and six grandchildren.

    Chairman Smith. Thank you.
    Mr. Krudwig.

 STATEMENT OF MR. GUS A. KRUDWIG, CO-FOUNDER, THE GLOU FACTORY

    Mr. Krudwig. Thank you for giving me the opportunity to 
speak today.
    When the Glou Factory first started about four years ago, 
we had started talking with some manufacturers, and they 
recognized the need for youth to develop some very basic 
skills. They were dealing with kids that could not--that did 
not know how to read a ruler and did not know how to use 
hammers, nails, stuff like that. And we started off by 
recognizing that there are actually four needs in the Jackson 
community, and we started to develop programs in dealing with 
those needs.
    The first need was for early vocational training and 
decision-making. Currently, there are very few hands-on, 
interactive type programs in Jackson County, and whereas they 
do exist in some schools, they are increasingly being cut back 
due to budget constraints and other educational and academic 
priorities. The need for young people to develop life skills to 
prevent unhealthy behaviors, the skills of problem-solving, 
critical thinking, conflict resolution. One of the third needs 
that we identified was the need for a skilled workforce that 
fulfills employment requirements. Technical skills are most 
needed in our community. They include a basic use of 
information technology, manufacturing technology, and skilled 
trades. Workplace skills that were needed included team 
building, written and oral communications, planning and 
organization, and habits of responsible employment. And then 
one of the fourth things that people identified for us to try 
to develop something with was community service, which they 
also felt was important.
    So with those factors in mind, the Glou Factory began 
creating a series of programs for youth to participate in. I am 
just going to briefly cover one of them. One of the programs 
that we do most frequently with kids is a birdhouse. And it is 
a fairly simple statement, but it is not really. It is a fairly 
complex project for kids to participate in. One of the first 
things that kids will do at the beginning of the birdhouse is 
they will actually receive a set of blueprints for each piece 
of the birdhouse that they are working with. From those 
blueprints, they will actually begin taking measurements with--
we will show them how to use tape measures, how to use rulers, 
how to make the critical dimensions, and enter that information 
on the blueprints that they are actually using.
    One of the other steps that we will teach them is about art 
and how to paint. Kids will complete a landscape painting 
during the time that they are working with us. And while 
painting in the landscape, they are actually learning about the 
mathematics as well. It is kind of the mathematics of art: 
learning about proportion, ratio, size, depth, and dimension in 
the painting. So when we created this birdhouse project, it was 
kind of interdisciplinary. We work with math, science, art, and 
computers. Once the kids had finished their work with the 
blueprint reading and so forth, they will actually go to a 
computer lab, and we will show them how to interact with the 
computer so that they are doing something other than playing 
with computer games all of the time. We are showing them how to 
draw those pieces in a 3-D representation on a computer, to 
scale, so that they have a better understanding of math and 
science in that regard, as well.
    We work with a lot of organizations in Jackson that come to 
us and ask us to perform certain projects and programs. Some of 
them are fairly large scale. Some of them are easy to do. Some 
of them are funded. Some of them are unfunded. It really 
depends on the time schedule as to whether or not we are able 
to accommodate all of the people that come to us with their 
programs.
    What we--what the manufacturers have found is that--and 
even the schools that we work with, our programs are some of 
the highest attended programs in Jackson County in any after-
school programs. We will work with about 240 kids during the 
course of a school year. We might lose eight or nine kids 
during that time. Schools are really pleased with the 
attendance of our programs and the performance that the kids 
have. And a lot of the kids that attend our programs do not do 
well in traditional type sessions, so they will put them in our 
course, and each week, they have a chance for success. Each 
week, they improve the skills that they learned the week 
before. Even with the birdhouse project that they do, if they 
don't understand the math one way one day, they are going to 
get it another way on another day, and by the time the project 
is complete, they will understand it every way.
    I believe that is all I have.
    [The prepared statement of Mr. Krudwig follows:]

                  Prepared Statement of Gus A. Krudwig

    The Glou Factory is a non-profit 501c3 youth education center 
started by Gus Krudwig and Lou Cubille in Jackson, Michigan.
    Since its inception in November 2000, the goal of the Glou Factory 
has been to provide quality programs that educate and mentor our youth 
so that they can become successful students and future leaders in their 
community. This goal is being accomplished by providing after-school, 
Saturday, and summer enrichment programs that develop self-esteem, 
self-respect, and the ability to work well with others. The success we 
achieve is due in part to the quality and strength of the programs, 
smaller class size and dedicated volunteers. Each student is given 
personal attention so that they understand what is being taught to 
them.
    The Glou Factory has served over 1300 kids in specialized programs 
in Computer Technology, Woodworking, Cycology (Bike Repair) and Art.
    Our programs specifically address four needs in the community:

        1.  The need for early vocational decision-making and training 
        for Jackson County youth. Currently, there are few interactive 
        hands on programs in Jackson County. While some in-school 
        programs do exist, hands-on, vocational programs are 
        increasingly being cut back due to budget constraints and other 
        academic priorities.

        2.  The need for young people to develop ``life skills'' that 
        prevent unhealthy behaviors. These skills include problem-
        solving, critical thinking, conflict resolution, cooperative 
        learning, developing healthy behaviors, and avoiding behaviors 
        such as drug and alcohol abuse and juvenile crime.

        3.  The need for a skilled workforce to fulfill employment 
        requirements of area employers that require increasingly 
        sophisticated technical and workplace skills. Technical skills 
        most needed in our community include basic use of information 
        technology, manufacturing technology, and the skilled trades. 
        Workplace skills needed include team building, written and oral 
        communications, planning and organizing, and habits of 
        responsible employment. These skills will lead to a more 
        successful, productive adulthood.

        4.  The need for youth to develop habits of community service. 
        Communities need citizens who are engaged in civic affairs and 
        voluntary, community service activities.

    Additional program outcomes also include asset development and 
fulfillment of the promises related to the Jackson County Promise to 
Youth Alliance by offering:

         Marketable skills through effective education

         Ongoing relationships with caring adults

         Safe places and structured activities during non-school hours

         Opportunities to give back through community service

Computer Programs      3 programs

         Introduction to Computer Technology

         Computer Lessons (Ayieko Resource Center)

         Digital Film and Computers

Introduction to Computer Technology
    Our experience has shown us that children that do not have a 
computer at home are less likely to interact with computers at school. 
They have a fear that something they do will cause the computer to 
crash or become damaged and they do not want to get in trouble. Our 
program is designed to de-mystify this technology so youth have a basic 
understanding of how a computer works and the practical use and 
limitations of computer software.
    During this program we take ten working computers into a lower 
income area of Jackson and give kids an opportunity to take these 
computers apart, identify their components and put the computers back 
together in working order.
    Youth work with a variety of software and recognize the differences 
in the types of software. For example the difference between a drawing 
program and a paint program, open ended vs. closed ended software.
    They are also given opportunities to work with a computer that they 
can talk to and it will respond to their voice commands. For example if 
they say, ``Athos tell me a joke,'' the computer would then tell them a 
joke. They can also play a song of their choice, print documents, open, 
close and quit applications, etc., all through voice commands.
Computer Lessons (Ayieko Resource Center)
    The Ayieko Resource Center is a high-speed Internet computer lab 
operated by the Jackson Housing Commission, targeting low income 
residents but, open to the general public in Jackson, Michigan. The 
Glou Factory assists students and adults that want to improve their 
computer skills in small-personalized classes. Approximately 95 percent 
of the people using this lab are from the low-income housing complexes 
immediately surrounding the center.
Digital Film and Computers
    During the program we film and photograph the students. At the 
conclusion of the program we teach the kids involved how to transfer 
this information to a computer using title screens, transitions, screen 
effects, add narration and music and edit it into a completed short 
film. These films are used for program promotion and to help secure 
additional funding for future projects.

Woodworking (Birdhouse Project)

    This project is what we refer to as an integrated project, 
incorporating woodworking skills, blueprint reading and measurements, 
computer design and art. Woodworking skills include sanding, painting, 
proper use of tools and safety equipment, assembly techniques and 
craftsmanship. Students are also given a set of blueprints for each 
piece of their birdhouse without the dimensions. The students then use 
tape measures to enter the required dimensions. Once the worksheets are 
complete the students are taken to a computer lab where they learn to 
draw the pieces in a 3-D representation using the measurements from the 
blueprint worksheets. Students are also given art instruction and 
taught how to paint a landscape on the roof panels of their birdhouses. 
In past summer birdhouse projects, we had access to a commercial grade 
laser engraver that the students used to engrave their name directly 
onto the birdhouse furthering the computer skills used in this project.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We have attached a complete detailed nine-week program description 
(see Appendix).

Cycology      2 programs

         Bike Repair

         Safe Kids Bike Clinics

Bike Repair
    This program is designed to teach kids how to properly inspect and 
repair bikes. It is open to youth ages 10-14 years old. After fixing 
three bikes the students are allowed to keep one--the others are 
donated to youth and adults in Jackson, strengthening the community 
service aspect of this program. This program involves increased 
vocational preparation skills, including understanding the mechanics of 
bicycles, learning how to disassemble, repair and reassemble bicycles, 
and using appropriate tools properly and safely. Donations of bikes 
come from the Cascades Civitan Club, City of Jackson Police Department, 
and the general public.
Safe Kids Bike Clinics
    Clinics occur at various locations in Jackson and allow kids the 
opportunity to have their bikes repaired and licensed. They also 
receive a free, properly fitted bike helmet and learn bike safety on an 
approved course. Youth that have participated in our bike repair 
program assist at these clinics.

Art Programs      2 programs

         Painting

         Murals

Painting
    The Glou Factory is best known for its art programs because of the 
results we achieve with youth with little or no artistic background. 
They start by learning about primary and secondary colors and basic 
shapes. The first painting they do is a simple landscape where they 
learn step-by-step how to design and compose the space of a blank 
canvas (81/2 inches  11 inches). They learn how to use and maintain 
materials properly, blend colors and use different techniques to get 
desired effects.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    (Note: this was her first painting with brush and canvas.)

Murals
    Due to its location and changes in the manufacturing arena, the 
city of Jackson is quickly developing into a community that is becoming 
more aware of its art and culture. Since the Glou Factory is successful 
with its art-based youth programs, we get requests for youth to paint 
murals that will be displayed in schools, churches or on the sides of 
buildings.
    Some of the largest permanent murals we have created have been for 
the Armory Arts Project, a multi-million dollar project that will turn 
a vacant unused manufacturing plant into a low-income housing project 
for working visual and performing artists and their families. Murals 
for this project were designed to show local Jackson artists performing 
their art. Since the Armory Arts will not be opened until 2005, these 
murals will remind the public of future plans for this site.
    Mural programs include sessions in conceptual drawing, photography, 
film, design layout, and final painting. These programs are open to 
youth ages 14-21.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Measurements of Success

        1.  Does the project meet the community needs and asset 
        development identified by the Glou Factory?

        2.  Does it satisfy the high program standards expected from 
        the Glou Factory?

        3.  Testing--Pre-tests allow us to gauge the current knowledge 
        of the average program participant. Post-tests allow us to 
        gauge how well we achieved our goals. Pre- and post-tests are 
        used extensively during the first year of a program's 
        development. They assist us with the overall program 
        development. We do not use pre- and post-test scores as 
        statistical measures of student achievement.

        4.  Staff/Volunteer assessments--each segment of the program is 
        evaluated and proposed changes to the program are discussed.

        5.  Project Quality--Are the students, parents, funders, 
        schools and program partners satisfied with the overall quality 
        of the project.

Current Community Partners

         Armory Arts Project

                 Enterprise Group

                 Artspace

         Greater Jackson Chamber of Commerce

         Ayieko Resource Center

         Jackson Housing Commission

         Irish Hills Girl Scout Council

                 Camp O the Hills

         Jackson Public Schools

                 Bennett Elementary

                 Hunt Elementary

                 Northeast Elementary

                 Wilson Elementary

                 Parkside Middle School

                 Amy Firth (Alternative Middle School)

                 Tomlinson (Alternative High School)

         Jackson County Intermediate School District

                 Columbia Elementary School

                 Western Middle School

         Safe Kids--Jackson Chapter

                 Jackson City Police Department

                 Jackson City Fire Department

                 United Way

                 Jackson Community Ambulance

                 Toy House

         Jackson Community Corrections Program

         St. John's United Church of Christ

         North Parma United Methodist Church

         Cascades Civitan Club

         Diversity Study Circles

         Jackson County Community Foundation

         Jackson County Youth Advisory Committee

         Prevention Partners

         COJAX--Cultural Organizations of Jackson

         Arts and Cultural Alliance of Jackson County--Design Review 
        Board

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                      Biography for Gus A. Krudwig

    Gus attended Eastern Michigan University where he studied Criminal 
Justice. He has a background in law enforcement (Whitmore Lake Police 
Dept.) and security (University of Michigan Housing Security 
Department). In 1991 Gus began using his expertise to assist various 
non-profit organizations and local schools with computer technical 
support. It was during this time that Gus began working with youth and 
youth related programs and this provided a foundation for the 
development of the Glou Factory. In November 2000, Gus Krudwig and 
Louis Cubille formed the Glou Factory, a youth education facility that 
teaches students about art, woodworking, computer technology and 
bicycle repair.

                      Biography for Louis Cubille

    Since moving to Jackson in 1992, Louis has had many accomplishments 
that have changed the face of Jackson. His biggest accomplishment is 
being the co-founder of the Glou Factory, a youth education facility 
that teaches students about art, woodworking, computer technology and 
bicycle repair.
    He designed the art for a water tower welcoming people to the city. 
He also supervised and assisted local youth and adult artists to paint 
murals that adorn Casler Hardware, Armory Arts Project, King Center, 
Amy Firth Middle School, Northeast Elementary, Allen Elementary, 
Tomlinson High School, St. John's United Church of Christ, and New City 
Resources. He has taught art to hundreds of Jackson County youth.
    A native of Ponce, Puerto Rico, Louis and his family moved to New 
York when he was seven. Since Spanish and English are spoken at home he 
is fluent in both languages. He started his art career at the High 
School of Art and Design and furthered his education at the Fashion 
Institute of Technology, where he majored in illustration and 
advertising.
    As a commercial artist Louis has worked for some of the largest 
department stores in New York City and was art director for a major 
mail order company.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Smith. Thank you very much.
    When we had--and was it last week or the week before last, 
we had the award, of course, for the outstanding math and 
science teachers in the United States? And in talking to those 
witnesses, it was interesting with one of the witnesses that 
was dealing with a community where almost 100 percent were 
eligible for the free hot lunch, a very below-poverty 
community, and the challenge of exciting, especially math and 
science in those communities compared to if you happen to live 
outside of NASA or when you are dealing with a high school 
where there might be a lot of Boeing employees in that 
community. So there is a tremendous challenge as we look across 
the communities and schools in the United States.
    I guess my first question would be if we are going to have 
this as a win-win situation, and whatever is done by business 
and industry, of course, is a win for the United States, do we 
just ask on the generosity of companies to improve their local 
schools where these students might go on to another community 
or another industry? Can there be some rewards, Ms. Bailey, in 
terms of your industry, your company working with these 
students with their more greater familiarity that they are--
that there is a chance that they will come back and work for 
Boeing? My first question is how do we help make this a win-win 
situation for both America and for the individual companies 
that are going to be giving up their time? And just briefly go 
down the row for a quick answer, and Ms. Bailey, starting with 
you.
    Ms. Bailey. Mr. Chairman, I think collaboration is going to 
be critical. I mentioned earlier that being engaged with 
programs and initiatives that are scalable and can be 
replicated is critical to success. And I think in the case of 
Boeing, as well as other industries, working collaboratively to 
address the issues of education is absolutely imperative.
    As it relates to whether or not we are in a school district 
that has the availability to have an advanced science lab 
versus one that is working at below poverty level because of 
the socioeconomic group, I think there are many initiatives 
that you can initiate that would allow both organizations or 
both schools to be effective.
    Mr. Engeln. Yes, I do see the better educated students are, 
the better it is for all business. And I think there is almost 
a need for a third category and that is those businesses that 
have an outreach to programs where there is not a Boeing 
Company in town or a Texas Instruments company in town, things 
of that type.
    Chairman Smith. Mr. Robinson.
    Mr. Robinson. I would simply say understanding the needs of 
each constituency, each stakeholder. If it is the students, 
they want to work with something that is fun. That is what it 
comes down to for elementary and high school students. Is it 
fun? Is it relevant? For teachers and administrators, does it 
move the student achievement needle forward? For businesses and 
government, does it provide for an adequate workforce? So 
what----
    Chairman Smith. Why does TI do it?
    Mr. Robinson. Why does TI do it?
    Chairman Smith. Why are you putting your hundred thousand 
dollars or so to make this effort with local high schools?
    Mr. Robinson. Simply because we, as an industry, need a 
larger pool of science, technology, engineering, and math-rich 
students that are available to TI and to the industry. It makes 
the community better when you have an educated populous.
    Chairman Smith. Dr. Ramaley.
    Dr. Ramaley. I am going to quote from a report called 
``Focusing on Results: a Business Leader's Guide for Optimizing 
School-to-Career Partnerships''. And what they focus on is what 
is in it for the company. And the answer they give, from a 
whole range of companies, is that it improves employee morale. 
It improves loyalty and productivity of the employees. It is a 
wonderful way to develop mid-level managers as they prepare for 
greater responsibility, because it finds the collaborations 
they are dealing with numbers of people and dollars that they 
won't see in their own company for up to 10 to 15 years, 
depending on where they are in their careers. It confers 
recruitment advantages. It reduces training and supervision 
costs, and it definitely improves public relations. So there 
already is a considerable incentive for middle-sized and large 
companies to engage in this work.
    For smaller companies, say fewer than 50 employees, which 
is what you find in most states, actually what is going on 
there is a mixture of employee-based quality of the community 
so that they can attract more people to their companies, 
because the--better and a way to encourage their own employees 
who are parents or who have children in school to be able to--
--
    Chairman Smith. Mr. Krudwig.
    Mr. Krudwig. What we have found is a lot of projects and 
programs quickly become cost-prohibitive.
    Chairman Smith. A little closer. It is--I can't hear you 
very well.
    Mr. Krudwig. What we have found is most of the projects and 
programs quickly become cost-prohibitive if there was some type 
of additional funding or something made available to these 
types of programs. I don't think you are going to be able to 
depend on, necessarily, businesses by themselves to--at least 
my experience in Jackson anyway, to be able to fund the 
substantial costs that these types of programs are going to 
incur.
    Chairman Smith. I think part of the gold medal award or how 
we do it, number one, we have left a lot of flexibility in the 
language so, Dr. Ramaley, the Working Group is a possibility. 
We have left that flexibility in for NSF to proceed. Part of 
this, hopefully, will be a brag item. And maybe, like you say, 
the advertising to be involved can contribute, but also the 
advertising on the award. And maybe we do the award on the 
Floor of the House on C-SPAN. I don't know. But we are looking 
for ideas.
    With that, my red light is on, and we will call on 
Representative Johnson.
    Ms. Johnson. I listened very closely to the potential costs 
for this award. If I was going to attempt to make any 
improvement, I was going to suggest originally that maybe some 
monetary award be added to it, but I guess that would maybe put 
it up to the point where it would be discouraged, because of 
the spending. However, unless there is a way to make this a 
very meaningful award, I wonder what kind of incentive it would 
serve. I would like to have you comment on what you think needs 
to be done and how we can make it very meaningful for the 
persons to aspire to achieve it.
    Dr. Ramaley. I can speak a little bit to that, because the 
National Alliance for Business had a very similar program until 
two years ago when they merged with another organization, and 
their agenda took another path. What they did was they held a 
national meeting. They presented the awards. They then took out 
advertisements, which were in a number of national meetings, 
celebrating the achievements of their recipients. And they used 
several categories. They had a community college of the year. 
They had a company of the year. They had a state of the year. 
The last one they gave, by the way, was Virginia. They had a 
state business coalition and a local business coalition. So 
they went after a lot of different things. They did not have an 
additional monetary award. I tried to find out from the woman 
who used to run the program why they discontinued it, and I 
believe it is simply a redirection of their agenda. And it has 
some similar elements in this one. But the incentive appeared 
to be national recognition.
    Ms. Johnson. Anyone?
    Mr. Robinson. I would agree. Recognition would be probably 
one of the top two, recognition of the entities that have 
supported the award-winning program. Another element would be 
if there is a monetary award, that could be significant, 
because that award could go to whatever the supporting program 
happened to be, the non-profit, because we wouldn't want, 
necessarily, I don't think, an award going to a for-profit 
company, but one of the non-profits that are supported by the 
award.
    Ms. Johnson. Anyone else?
    Mr. Krudwig. All right. I tend to agree. I think 
Congressional recognition and national recognition, that is 
significant. I don't doubt that at all.
    Ms. Johnson. Thank you very much.
    Chairman Smith. Thank you. And in some of the award 
programs, the businesses themselves contribute, in terms of a 
fee for the application. We didn't incorporate that in this 
bill, but the flexibility is there in some cases.
    Mr. Gutknecht.
    Mr. Gutknecht. Well, thank you, Mr. Chairman. And I 
apologize on behalf of many of my colleagues. Here, in 
Washington, we tend to pile meetings on top of meetings, and I 
had to go out even during your testimony, and so I apologize. I 
didn't hear all of it. But I do want to thank all of you for 
coming today. I think this is a very important national issue. 
I think the idea of motivating more young people and teachers 
in the area of science and math really needs to be a national 
priority. And I say that, because if you compare where we are 
in terms of educating new scientists and engineers and people 
in mathematics, we are doing okay until you start looking at 
what some of the Asian countries are doing, and then all of a 
sudden you realize we are falling further and further behind. 
And I think it is critical to the long-term growth of our 
economy and the improvement of our lives. And I guess what I 
would like to--and I don't know if you can comment on this, I 
happen to believe that success leaves clues. And I think that 
there are ways that we can learn from areas where we do see 
growing interest, particularly among some sectors of our 
society.
    If you look at sports, and I--you know, we hear too many 
sports analogies, but I think there is room for a comparison 
here that, you know, in sports, every Friday, the home team 
plays the cross-town rivals and there is a big write-up in the 
paper. And they publish the scores, and they have pictures of 
the kids, and we tend to really elevate sports stars, whether 
it is at the high school level or now even at the midget level 
all of the way through, and yet--and now I don't want to say 
that that is not important, but it seems to me we have got to 
figure out ways to recognize achievements in math and science. 
And I think the efforts of some of the companies represented 
here today are very, very laudable, and we do appreciate them. 
But are there other ways? Can you think of other ways and--
well, let me just throw out one of my ideas, and you can tell 
me if this is a terrible idea. What I would really like to do 
is see if we can't figure out a way to take maybe a little bit 
of federal money, some State money, match that with some 
corporate money and do something that they do do in sports, and 
that is that they have in the summer these camps. And it really 
gives an opportunity for a lot of coaches to, you know, pick up 
a little extra money. And it also is an opportunity for 
youngsters who have an interest, whether it be in basketball or 
volleyball or whatever the sports camp is. I guess my question 
is is there a way that perhaps we could structure a program, 
and maybe you can't answer it today, to encourage those kinds 
of camps to be established around the country so that 
youngsters who are interested in math and science would--could 
get together, advance their understanding of the particular 
science, and also allow science and math teachers a chance to 
maybe pick up a few extra bucks and do something that is 
interesting for a couple of weeks in the month of June? Any 
comments on that?
    Dr. Ramaley. May I comment, Mr. Chair?
    Mr. Gutknecht, we support that kind of development through 
what is called the Informal Science Education Program at the 
National Science Foundation. And it is built on exactly the 
story you just gave. There are both summer programs, after 
school programs, programs that are sponsored by community 
organizations for kids and families as well as more formal 
ones, and a wonderful portfolio called Citizen Science where 
young people and families and community members learn about 
some topic that will actually be applied to a problem in their 
own community. So we are doing a lot of this. And I wrote down 
Gus Krudwig's quote, ``If kids don't get the math one way on 
one day, they will get it another way another day.'' That is 
actually a better motto for what we are doing than anything 
that I have come up with that sounded a little more officious, 
so I am going to steal your quote. So you had a very good idea, 
sir, backed by our efforts to help people around the country.
    Mr. Gutknecht. Mr. Chairman, just one last point, then. I 
really would like to maybe pursue this discussion as we go 
forward to figure out how we, on the Science Committee, can do 
a better job of perhaps being the instigators of these kinds of 
programs in our own Districts. I mean, I have, you know, at 
least one of my universities who is very interested in seeing 
if they couldn't host some kind of event. Now if we could just 
find a little bit of state money, a little federal money, and 
maybe a little corporate money, I think it could be turned into 
something that would be beneficial to all of the kids.
    The other question I might just have and my--I see the 
yellow light is on. I am particularly concerned about how do we 
get more minority students interested in math and science? And 
maybe that is not the right term to use, because if you look at 
the schools in math and science, even in my own universities, 
they are heavily dominated by Asian kids. But it is hard to get 
a lot of other kids involved in math and science. Any--and my 
red light is already on, and so I am not sure you can answer 
that, but----
    Dr. Ramaley. A very brief response, sir. That is something 
we would love to come talk to you about. We have a very big 
agenda there. Some Members of the Committee have heard about 
it; some have not. With respect to helping you--anyone who is 
interested in advancing these in their own Districts, that is 
something we do regularly. We offer workshops. We do many 
things. We help people identify resources. But you--the topic 
you are raising is critical, and we would be happy to come 
brief you about it.
    Mr. Engeln. Yes, I think it is also important. Schools have 
an obligation to make sure that they recognize students for 
science and math achievements just like they would recognize 
students for athletic achievements. And we saw in our school a 
big turnaround, and it literally became cool to be smart. Kids 
would go and watch other students perform at the science fair. 
And I think that had a lot to do with the recognition that was 
afforded for all kids in all areas, not just the traditional 
activities.
    Chairman Smith. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and Ranking Member 
Johnson. I appreciate this opportunity.
    I have got a bunch of comments and questions for all of 
you, but I am going to try to be as succinct as possible.
    One of the comments I heard that was quoting the saying up 
there was without a vision, the people will perish or something 
like that. And your comment was, Mr. Robinson, a vision without 
funding is illusionary. It was Mr. Engeln. But I think I heard 
a thread through all of you, and that is--and maybe I am wrong, 
but a lot of the activities that you are doing are good, and I 
think that it is helpful. It relates--it makes it relevant, I 
guess, for a lot of students, but I guess there are a lot of 
companies that are doing a lot of things throughout this 
country that are helping youngsters in addressing the issue of 
kids who don't have enough exposure, issues around equity in 
schools. I think that that is one issue that we are not facing 
about equity and funding and teacher quality throughout all of 
our schools. But let me make a comment on this. Are we focusing 
on symptoms of the kinds of things that may be amiss in our 
public school system and not at the causes? And yet all of us 
probably have a sense that we know where the cause and we are--
but we are working really hard on trying to make some 
corrections and interventions.
    The other question I have is probably more geared toward 
Dr. Ramaley. Cost, I agree. I think there is going to be a 
tremendous amount of costs and effort in this from the NSF. And 
it seems like if we are going to do a program like this for 
honoring and recognizing folks, it sounds like we are going to 
have to have a system to sort of process everybody and find 
out, you know, in what areas are we going to recognize them in. 
It is going to be in areas, like Mr. Krudwig where, you know, 
you are taking youngsters that needed some help and encourage 
them, or are we going to go to Mr. Engeln's position where he 
is a principal? And I suspect that if you took him out of the 
picture, a lot of that stuff would have never happened between 
'93 and '98. So I think that principals have a major role in 
the success of youngsters and the way schools are run and done.
    But the assessing of people who submit their programs will 
probably seem like it will be just like the Baldridge Award for 
Quality, you know. Then it will have some standing, I guess, in 
the community. But I guess to Mr. Engeln, if you wouldn't mind 
touching on--the achievement between '93 and '98 was great. And 
I--my question would be if you took the principal out of that 
picture, would the focus have been there and would the 
achievement have been there? If so, what are the ingredients 
that could be replicated throughout this country?
    To Mr. Robinson, you know, the high school program, 
Infinity, it is a good program. I suspect that it has really 
generated a lot of interest and relevancy for students who 
don't understand the relevancy or the connection as they move 
on into math, because someone took the interest and the time to 
do that. What are some of the strategies that came out of that 
program that points toward the fourth grade, because fourth 
grade was mentioned? And then our achievement seems to drop 
after fourth grade. What are some of those things that could be 
pointed to fourth grade so that the programs--the Infinity 
programs--that kind of energy and resources can be, you know, 
placed in other areas?
    The comment about Asians being predominant or noticeable 
minority, as an Asian American, I just have to make this 
comment. I appreciate what appears to be a high level of 
attention towards Asian students, but I have to say that that 
kind of comment could be very misleading in terms of the kinds 
of problems we face in the public educational system in that it 
tends to elevate Asians as if other minorities are not doing 
anything. That is number one. Number two, if you look at the 
families that these Asian students come from, there are 
probably a lot of characteristics that are seen with other 
families who are successful with their students. So I think 
that we ought to look at and desegregate the Asian population 
and see that there are other--the Asian populations are having 
as much trouble in math and science as any other student that 
comes from an SES, a socioeconomic status, that are 
commensurate with other students who are having problems in 
terms of different neighborhoods. So I think that we need to 
focus in on those kinds of factors rather than just looking at 
minority groups, because I think that that does a disservice to 
all groups.
    Chairman Smith. Mr. Honda, with your permission, I would 
ask maybe the witnesses to very briefly make a comment and 
then----
    Mr. Honda. Okay.
    Chairman Smith.--if you would, follow up with a more 
detailed answer to, I think, a pretty profound part of the 
question that we somehow have to answer.
    Mr. Honda. Right. And then, Mr. Chairman, if you would just 
allow me just one last comment.
    If public education had something to do with homeland 
security, and I think it does, because I hear that as a 
lingering kind of a concern, if it could equate homeland 
security and public education, then we should probably be 
looking at a budget for education as we look at the budget for 
the Department of Defense. And--but I just--I don't want to 
leave the podium without telling you that as a school teacher, 
I appreciate the kinds of activities that all of you do, from 
private industry to community organizations, that you are 
saving kids. You are saving kids. And you are encouraging them 
to go on. But I would like to hear from you, also, what you 
think would be your--in addressing the real problem in public 
education so that all students can have the equal opportunities 
that we say we want them to have.
    Chairman Smith. And you want it in less than book form when 
they--a brief comment, a very brief comment, if you will, and 
then if you would consider following up with----
    Mr. Honda. Sure.
    Chairman Smith.--some of your other----
    Mr. Honda. Thank you, Mr. Smith.
    Chairman Smith.--thoughts on it to Mr. Honda, through the 
Committee. Please proceed.
    Mr. Engeln. Two things, very quickly. One of the things we 
found is when the business community cared, the students 
responded. And I think that was a big part of the change that 
happened at Palmer High School. As far as replicating our 
success, there are two documents that you do have: the Guiding 
Principles for School-Business Partnerships, which is research-
based, and a simple how-to guide for school-business 
partnerships. And this is based on my experiences as well as 
principals throughout the country to try to put best practices 
in place in very easily useable format for schools and 
businesses.
    Mr. Honda. My question was, though, what role did the 
principal have?
    Mr. Engeln. The principal does play a huge role, but so do 
parents, so do students, so do teachers. And if it is a truly 
community effort involving the businesses, your chances of 
success are much greater. That is my personal feeling. And I 
couldn't have done it alone. It truly was a community effort.
    Dr. Ramaley. Mr. Honda, I will pick one piece of that very 
complex story, and that is there is no magic bullet. There is 
no one place to intervene. The primary piece of advice given in 
every document I have seen is look at the whole system. Make 
sure your intervention is mindful of the rest of it. And then 
you may get somewhere.
    Chairman Smith. To finish our testimony, I am going to move 
to Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. I am glad--it seems like 
we are getting it in here at the last minute. That is good.
    I just had a couple of thoughts. First of all, I used to 
teach a thing called Project Business, which is part of junior 
achievement, a number of years ago. And so I have had some 
interest in the kinds of things you are doing. It was a 
business kind of deal where you go in, and in this case, it was 
a math class. It was about eighth, ninth, and tenth graders and 
I had a chance to teach them for an hour. And that was quite a 
learning experience for the teachers, you can imagine. But I am 
very sympathetic with your interest to try to supplement and 
help kids to learn and get them through.
    First of all, in terms of questions in whether we have some 
concerns in this country, is there a shortage--or do we find 
there is a shortage of good math and science students that are 
educated in America? Are we educating fewer of them now than we 
did, say, 10 or 15 years ago? And is that a problem, first of 
all?
    Dr. Ramaley. We have not seen any evidence of fewer. What 
is happening is that we are raising our expectations. And as a 
result----
    Mr. Akin. And the number of Bachelor of Science that we are 
producing----
    Dr. Ramaley. Has remained almost steady.
    Mr. Akin. Fairly steady. But what you are asking those 
people to do when they come out is----
    Dr. Ramaley. Is higher.
    Mr. Akin.--okay, a little more challenging. Okay.
    And then I guess the next question I would say would be in 
terms of the history of education, I will maybe piggyback on 
some of the questions that Congressman Honda was talking about. 
Have you taken a look at any of the assumptions that we build 
into education? For instance, what was the performance of 
education in America, say, 200 years ago? Have you looked at 
that?
    Dr. Ramaley. There have been a number of studies on exactly 
that. I would be pleased to have someone provide you a----
    Mr. Akin. Do you know what the literacy rate was in 
America, for instance, in the year 1800?
    Dr. Ramaley. We have those data. I don't have them in my 
head. It was much less than it is today, but we can get those 
kinds of figures for you.
    Mr. Akin. That is why I ask the question. One of the things 
they teach us--I am an engineer by training, but I hang around 
enough lawyers to have learned some of their tricks. One of 
their tricks is you don't ask a question unless you know the 
answer. Jefferson had a study commissioned on American literacy 
in the year 1800, and that literacy rate came back that of 
sample populations of 1,000 people, a sample of 1,000 where 
there were two that could not read and write with a clear 
handwriting, and good reading skills was an unusually 
illiterate sample population. So we had 99-plus percent 
literacy rate in America in 1800. And today, at least in our 
city schools, do you know what that rate is? It is not very 
good. It may be half, if we are fortunate. Now that suggests in 
that--you are all people who come from a technical background 
and from a well-educated background, doesn't that suggest that 
we take a look at, from a system's point of view, what has 
changed? I think there are some fundamental questions that 
would be good to ask and to ask ourselves what really works in 
education and what doesn't.
    You are talking about setting up some kinds of projects 
where people are being recognized so kids get some attention 
for their performance. Who are the kids most interested in 
impressing? Have you considered that? And I think that is an 
interesting question. I am 56. I guess I still act like a kid a 
lot of times. If you ask me that question, as somebody on the 
planet Earth, who would you want to impress, I think to me, it 
is more likely my parents than anybody else. You know. Are we 
building that into the equation as we are trying to set some of 
these programs up?
    And so I just challenge you to try to take a look at some 
of those things. Another thing, too, that you might give some 
thought to and that would be there is an increased number of 
people who are home schooling. Are any of the programs that you 
are dealing with available to those kids, because some of those 
kids are very innovative? And you have an element there that 
makes education go well, which is heavy parental involvement. 
You know, no matter what school a kid is in, if the parents are 
involved, it always seems to work better, and there might be a 
place where you would find a lot of interest, and they have a 
much more flexible schedule so they could work on projects and 
give them more time.
    Just a few thoughts. I just wanted to ask you about that 
just from the basics of what are we doing, how do we tailor the 
programs to be more effective, and what are the parameters that 
make a program effective. But I encourage all of you and thank 
you for the work that you are doing moving from the public into 
the--I mean private into the public sector that way. Anybody 
who wants to respond, I am happy to--otherwise, we are going to 
have to go scoot and vote. Yeah.
    Mr. Engeln. Yes, I could respond, maybe, to the home school 
piece and that one of the things we see in high schools is a 
lot of parents that are home schooling their students tend to 
become more involved with their high schools when they get into 
upper level science and math classes. So it still is a natural 
way to bring home schoolers, public school educators, and 
businesses together.
    Mr. Akin. Yeah. I know in our area that what we have done, 
at least with our kids, we have gone to the local colleges for 
our science classes. So when my kids get high school age, we 
just stick them straight into college classes. So that is one 
way you can do it, if you live near a college. You know. And 
you just poach it off as evening school or something like that, 
and they will let you in. And as long as you are getting good 
grades and everything, the colleges are happy to have a little 
extra income.
    But thank you for your thought and your good work.
    Chairman Smith. Mr. Akin, I might mention that I completely 
agree with many of your comments.
    Under Section 7 of the bill, we do include, in the entities 
that will select the Medal and the general criteria, Number 4 
is evidence of successful outreach to students, parents, and 
the community regarding the importance of mathematics and 
science education and the Nation's prosperity. And what I have 
said somewhat jokingly, but in some truth, is that if parents 
knew the circumstances of the unfunded liabilities and the 
danger of losing some of their Social Security and depending 
maybe more significantly on the income from their children, 
maybe they would encourage that science and math education more 
aggressively.
    I would like to conclude this by maybe each one of you 
taking a minute of any other thoughts that you would like to 
pass on. Your testimony and your--the response to questions 
will be provided to the Full Science Committee. We are planning 
on taking this bill up in the Full Science Committee next week, 
so additional thoughts or comments, starting with you, Ms. 
Bailey.
    Ms. Bailey. Just one last comment, Mr. Chairman. I think it 
is critically important that we look at this as a systemic 
issue and that we look at it as a system of systems issue and 
not take things in isolation, because we will find that many 
things impact other things. It is one of the strengths that we 
have identified of systems integration. We need to look at our 
educational system in the same fashion.
    Mr. Engeln. I think just to summarize with one comment is 
together you can achieve the extraordinary. And I think 
businesses and schools, working together, research has shown 
that it does make a difference in the student achievement 
levels for students, and it is good for communities.
    Chairman Smith. Thank you, Mr. Engeln.
    Mr. Robinson.
    Mr. Robinson. I want to leave you with a thought from Dr. 
Mike Moses, who is the superintendent of schools in the Dallas 
Independent School District. And he uses this phrase when he 
talks to businesses about some of the great things that they 
are doing to work with the public schools in the Dallas area. 
He talks about random acts of kindness. Although many 
businesses are well intentioned in their efforts with schools, 
oftentimes it is just not aligned with the priorities. It does 
not move that needle of student achievement forward. So I 
wanted to leave with that thought, because as entities, we need 
to make sure that we are aligned with the priorities of our 
school districts.
    Chairman Smith. Dr. Ramaley.
    Dr. Ramaley. I would like to pick up on that. What I have 
enjoyed seeing is the growing appreciation by corporate and 
employer groups that are the very things you have just heard 
from the other witnesses. The sophistication, the clarity, the 
greater knowledge, the greater expectation that there will be a 
comprehensive response is changing how effective these 
relationships are and, I think, will benefit all of our young 
people, our teachers, and communities. And I wanted to thank my 
fellow panelists for the ways in which they showed you that in 
their own company programs.
    Chairman Smith. Thank you.
    Mr. Krudwig.
    Mr. Krudwig. I believe that the bill can help businesses 
and entities and schools all work together. I think it is 
something that is needed. And if it improves the math and 
science fields, then--that is it.
    Chairman Smith. Ladies, gentlemen, I thank you again. I 
hope you will permit us to ask additional questions by mail 
that you might respond to. Again, thank you very much for 
taking your time and making the effort to come today to testify 
on this issue. We appreciate your ideas and your knowledge very 
much.
    With that, the Subcommittee is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Antoinette M. Bailey, Vice President, Community and 
        Education Relations, Boeing Company

Questions submitted by Representative Michael Honda

Q1.  Are we focusing on symptoms of the kinds of things that may be 
amiss in our public school system and not at the causes? That is, are 
the kinds of programs this medal would honor simply patches filling in 
holes in our system, and by awarding the patches do we neglect to fix 
the holes?

A1. Educators, politicians, and business people should agree there is 
no ``silver bullet'' fix for our educational system. Section III of the 
bill outlines the poor performance of U.S. students in the areas of 
reading, math, and science.
    There are a number of other studies that delve into the issues and 
challenges facing the United States education system as we prepare 
young people to be fully capable and contributing global citizens: The 
Koret Task Force on K-12 Education is one such study, but here again, 
there are many reputable studies. We face a shortage of quality math 
and science teachers often times those teachers who are least capable 
of teaching math and science are often assigned to students and schools 
with the greatest need. The issues facing our educational system are 
complex and are a part of a larger socio-economic system that can't be 
addressed simplistically or singularly.
    Effective businesses are partnering and strategically aiming their 
resources and capabilities at specific entry points within that complex 
system. The Boeing Company, as an example, is focusing on improving the 
overall quality of math and science instruction by targeting increased 
capability of teachers and educational leaders. Recognizing the efforts 
of businesses in addressing this complex system is neither a fix nor a 
patch; however it can be beneficial if the recognition leads to 
incorporating successful initiatives into the larger integrated system 
through replication, internalizing, scaling up and sustaining 
successful interventions.

Q2.  What do you think are the real problems in public education that 
lead to inequality in opportunities for different students and how 
would you address these?

A2. I must defer to more learned colleagues in taking on this 
tremendously important and challenging question. I can offer a 
perspective that the issues of inequality are deeply rooted societal 
issues and are demonstrated in diluted expectations, inequality of 
health care access and health care education, limited pre-school 
educational options affordable for many families living below the 
poverty line, inequities in the distribution of income, ineffective 
school leadership, etc. I might direct the questioner to ``Education 
Next'' a Journal of Opinion and Research. The Spring 2003 issue 
provides a cornucopia of not only research, but opinions that deserve 
attentive considerations. Teacher quality can, over time, make a 
significant difference in the area of inequality. However, there does 
have to be an infrastructure in place to support quality teachers and 
enlightened leadership, e.g., adequate pay for performance, leadership 
development, resource support for quality instruction, etc.
    The Boeing Company will continue to support initiatives aligned 
with our strategy that enhance the learning and capability of the youth 
of our society and strive to be an active partner in this worthwhile 
endeavor.
                   Answers to Post-Hearing Questions

Responses by Jay T. Engeln, Resident Practitioner for Business-School 
        Partnerships, National Association of Secondary School 
        Principals

Questions submitted by Representative Michael Honda

Q1.  Are we focusing on symptoms of the kinds of things that may be 
amiss in our public school system and not the causes? That is, are the 
kinds of programs this medal would honor simply patching in holes in 
our system, and by awarding patches do we neglect to fix the holes?

A1. Relative to William J. Palmer High School in Colorado Springs, 
Colorado, the cause of many of our problems was a poor economic 
situation. The local and state business sector was in a downturn and 
the school district had not passed a bond issue for 27 years, 
consequently the funds available for school were very limited. The 
partnerships established between the school and businesses provided the 
revenue and human resource support that allowed the school to overcome 
the limitations of inadequate funding.
    I do feel that it is important to recognize businesses that are 
involved in math and science programs in public schools across the 
country. Showcasing exemplary programs for other schools, school 
districts, and businesses to emulate would be a plus. It is also 
extremely important that funding levels are not reduced because of 
business involvement. Partnerships provide an opportunity to enhance 
programs and provide the best possible programs for students. If 
funding is reduced because of partnership involvement at a school, then 
we are not only neglecting to fix holes but are creating new ones.
    As Senator Hilary Clinton stated repeatedly in the past, ``It takes 
an entire village to raise a child.'' Business partnerships put into 
action an essential component of this statement and recognition of the 
businesses involved is a positive way to share best in class programs 
that can servers as excellent models for others to emulate. . ..

Q2.  What do you think are the real problems in public education that 
lead to inequality in opportunities to for different students and how 
would you address these?

A2. In regards the topic of math/science school/business partnership, 
inequalities can occur based on the location of schools relative to the 
location of businesses. Businesses tend to be involved with schools 
that their employees attend or are located in the attendance area of a 
school or school district. Inner city schools and rural schools are 
often those with fewer partnership opportunities. Partnerships can help 
provide resources and/or expertise for schools that might not otherwise 
have these resources available. Overcoming these obstacles of geography 
can occur with businesses reaching out to schools in localities that 
they do not normally serve.

Q3.  How important was the principal in implementing your program? If 
you took the principal out of the picture, would the focus have been 
there and would the achievement been there? The concern is that if it 
is all driven by the principal, this program would not be very 
portable. But is it is not driven solely by a single personality, what 
are the ingredients that could be replicated throughout the country?

A3. Research repeatedly shows that the principal is an essential 
component of school reform and school success. Leadership that focuses 
on the incorporation of best practices in the classroom for all 
students is critical for continued improvement in student achievement.
    In regards to partnerships, the principal does play an important 
role in driving school/business partnership involvement. The process 
however, does not have to be limited to an individual principal's 
style. The process of implementing long-term, sustainable and effective 
partnerships is portable to other schools and school districts. The 
Guiding Principles for Business and School Partnerships and the How-To 
Guide for School/Business Partnerships are two documents developed by 
the Council for Corporate and School Partnerships, to assist schools 
and school districts in working with current and potential business 
partners. The publications incorporate research based information and 
examples of how to incorporate ``best practices'' when implementing 
school/business partnerships. The ingredients included in the documents 
are designed to help educators and business leaders maximize the 
benefits of partnerships and enhance the educational opportunities for 
all students. Working together, schools and business can make a 
difference!
                   Answers to Post-Hearing Questions
Responses by Torrence H. Robinson, Director, Federal Affairs, Texas 
        Instruments

Questions submitted by Representative Michael Honda

Q1.  Are we focusing on symptoms of the kinds of things that may be 
amiss in our public school system and not at the causes? That is, are 
the kinds of programs this medal would honor simply patches filling in 
holes in our system, and by awarding the patches do we neglect to fix 
the holes?

A1. The kinds of programs this medal would honor would indeed address 
key tactical areas in improving math and science education. Tactical 
areas include: curricular innovation, industrial involvement and 
interaction with students and teachers to improve student learning, 
more receptive student attitudes towards science, technology, 
engineering and math (STEM), parental and community education about the 
importance of STEM, and effective and sustainable programs.

Q2.  What do you think are the real problems in public education that 
lead to inequality in opportunities for different students and how 
would you address these?

A2. Attraction and retention of highly qualified teachers, particularly 
in the math and science disciplines is one of the ``real problems'' of 
public education that lead to inequality in student opportunities.
    High teacher turnover rates negatively impact all education 
sectors, but low income public schools are impacted at a greater degree 
than any other sector of public education, 20 percent vs. the average 
of 15.7 percent for all education sectors (Unraveling the ``Teacher 
Shortage'' Problem: Teacher Retention is the Key, A symposium of the 
National Commission on Teaching and America's Future and NCTAF State 
Partners, Aug. 20-22, 2002). Consequently, it is the lowest income 
students who suffer most from teacher turnover and attrition. The 
resulting effect is poorer teacher quality and lower student 
achievement.
    Major factors that influence teacher turnover include salaries, 
working conditions, preparation and mentoring support in the initial 
years of teaching. I would point Mr. Honda and the Science Committee to 
my full testimony with regards to the Texas Instruments Foundation 
investment in programs such as the Advanced Placement Incentive Program 
which includes a teacher preparation component. Programs such as AP 
have been proven to work in low-income schools. I recommend broader 
implementation of similar programs that perfect the abilities, raise 
the expectations and broaden the experiences of math and science 
teachers.

Q3.  Are there things that were successful with the high school program 
Infinity that can suggest how other programs might be designed for 
lower grade levels? The fourth through eighth grade period has been 
cited as a critical time at which student curiosity is quite high but 
at which time we often lose a lot of students who had previously been 
interested in math and science. Is there any data from your program 
that points to strategies that would allow you to leverage what you 
have learned at the high school level to improve programs at other 
grade levels, too?

A3. Strategies incorporated by the Infinity Project that could be used 
at other grade levels in math and science include making a clearer 
connection between curriculum and what students find relevant to their 
lives and making those connections more often. This is a particular 
challenge of traditional mathematics pedagogy. Too often textbooks and 
teachers do a poor job in making the connection between mathematical 
concepts and relevant applications that are interesting to students. 
During initial and subsequent revisions of the Infinity curriculum, the 
Infinity team, consisting of university faculty and technologists with 
doctoral degrees in engineering, physics and education, made it a point 
to consult with master secondary math and science educators. Their 
focus was to help bridge the gap between their content expertise and 
the real-world of the high school classroom, thereby ensuring that the 
content was not only accurate, but would integrate effectively within 
the practicalities and expectations of the high school classroom. This 
idea was particularly important because there are essentially few high 
school ``engineering'' instructors, therefore, the challenge that was 
successfully met by Infinity was to help math and science instructors 
translate their math and science content knowledge and pedagogical 
expertise into fun and relevant math and science-based engineering 
instruction.
    Another factor that is not unique to Infinity but is nevertheless 
critically important is access to qualified, properly trained and 
motivated teachers. The Infinity Project requires that teacher 
applicants are certified in math, science or technology. The Infinity 
Project Professional Development Institutes, which prepare instructors 
for teaching the Infinity material, consistently receive high ratings 
from its participants. A comment such as ``this is the best 
professional development I have ever had'' is a common reaction. The 
Infinity staff concludes that the positive outcome is due to the 
professionalism and enthusiasm of its instructors, the well-organized 
training materials, the experiential (i.e., hands-on) nature of the 
course and the customer-centered approach by the staff.

                   Answers to Post-Hearing Questions

Responses by Judith A. Ramaley, Assistant Director, Education and Human 
        Resources Directorate, National Science Foundation

Questions submitted by Representative Michael Honda

Q1.  Are we focusing on symptoms of the kinds of things that may be 
amiss in our public school system and not at the causes? That is, are 
the kinds of programs this medal would honor simply patches filling in 
holes in our system, and by awarding the patches; do we neglect to fix 
the holes?

A1. If the criteria for the award are defined in such a way that the 
award is made to programs or individuals who, by their example, create 
a vision for others of what is possible in public education, then this 
medal will have served a useful purpose. Enriching the vision for 
public education has the potential to do more than patch over the holes 
in our system. It can signify our resolve to seek out and validate 
those who have been successful in raising expectations for all students 
or who have created the strong academic environments in which 
innovative ideas and approaches have been nurtured. To the extent that 
the criteria for awards of this type contribute to a national vision of 
a high quality education for all students, such awards can be 
meaningful.

Q2.  What do you think are the real problems in public education that 
lead to inequality in opportunities for different students and how 
would you address these?

A2. The real problems in public education often stem from the lack of a 
realistic vision about (a) what constitutes a high quality education 
that can prepare our young people for the future and (b) how to get 
there. All too often there is neither sufficient understanding of how 
important academic leadership is in schools and districts nor the 
resolve to do what it takes to raise the level of academic leadership.
    Providing a high quality education that prepares all students for 
the future calls for:

        <bullet>  Challenging curricula, courses, and instructional 
        materials in every school, at every grade level.

        <bullet>  Teachers who are competent in their subject matter, 
        and knowledgeable about student thinking and how to assess 
        student progress on a day-to-day basis in the classroom.

        <bullet>  Guidance counselors, teachers, and administrators who 
        are well prepared to work with parents and students to raise 
        academic expectations, and whose advice and guidance give 
        students a vision of their future beyond what they may see in 
        their immediate environments.

        <bullet>  Strategic allocation of school/district resources 
        that aligns financial and other resources with what is most 
        valued.

        <bullet>  Multiple opportunities--including innovative use of 
        technology and structured experiences for enrichment outside of 
        the regular classroom--that engage students in academic 
        pursuits, expand their horizons of expectation for themselves, 
        validate their accomplishments, and make learning an endeavor 
        that is highly prized.

                   Answers to Post-Hearing Questions

Submitted to Gus A. Krudwig, Co-founder, The Glou Factory

    These questions were submitted to the witness, but were not 
responded to by the time of publication.

Questions submitted by Representative Michael Honda

Q1.  Are we focusing on symptoms of the kinds of things that may be 
amiss in our public school system and not at the causes? That is, are 
the kinds of programs this medal would honor simply patches filling in 
holes in our system, and by awarding the patches do we neglect to fix 
the holes?

Q2.  What do you think are the real problems in public education that 
lead to inequality in opportunities for different students and how 
would you address these?

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
